<html>
<title> - ANDEAN COUNTERDRUG INITIATIVE</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




                     ANDEAN COUNTERDRUG INITIATIVE

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 2, 2004

                               __________

                           Serial No. 108-186

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
95-530                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
------ ------                                    ------
------ ------                        BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
EDWARD L. SCHROCK, Virginia              Maryland
JOHN R. CARTER, Texas                ELEANOR HOLMES NORTON, District of 
MARSHA BLACKBURN, Tennessee              Columbia
                                     ------ ------

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            J. Marc Wheat, Staff Director and Chief Counsel
                         Nicole Garrett, Clerk
                     Tony Haywood, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 2, 2004....................................     1
Statement of:
    Charles, Robert, Assistant Secretary, Department of State, 
      International Narcotic and Law Enforcement Affairs; and Tom 
      O'Connell, Assistant Secretary, Department of Defense, 
      Special Operations and Low Intensity Conflict..............    35
    Walters, John, Director, Office of National Drug Control 
      Policy.....................................................     5
Letters, statements, etc., submitted for the record by:
    Charles, Robert, Assistant Secretary, Department of State, 
      International Narcotic and Law Enforcement Affairs, 
      prepared statement of......................................    40
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................    76
    O'Connell, Tom, Assistant Secretary, Department of Defense, 
      Special Operations and Low Intensity Conflict, prepared 
      statement of...............................................    52
    Walters, John, Director, Office of National Drug Control 
      Policy, prepared statement of..............................     8

 
                     ANDEAN COUNTERDRUG INITIATIVE

                              ----------                              


                         TUESDAY, MARCH 2, 2004

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3 p.m., in 
room 2203, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the subcommittee) Presiding.
    Present: Representatives Souder, Ruppersberger and Norton.
    Staff present: J. Marc Wheat, staff director and chief 
counsel; John R. Stanton, congressional fellow; Nicole Garrett, 
clerk; Tony Haywood, minority counsel; and Jean Gosa, minority 
assistant clerk.
    Mr. Souder. The subcommittee will come to order.
    Good afternoon. This is the second in a series of concise 
hearings on our Nation's drug policy. Today we will examine the 
critical issues of the drug supply in the Andean region and 
will provide members with an opportunity to focus on the 
President's 2005 budget request for the Andean Counterdrug 
Initiative. We will have the opportunity to discuss a wide 
range of drug policy strategy and implementation issues with 
Director Walters on his own panel. We will then seat Assistant 
Secretary of State Charles and Assistant Secretary of Defense 
O'Connell on the second panel.
    ONDCP has broad authority within the executive branch to 
coordinate national drug policy and budgets for Federal drug 
control agencies. Under existing law, the Director reviews the 
annual budget requests for each Federal department and agency 
charged with implementing a Federal drug control program. If 
the budget is deemed inadequate to fulfill the President's 
strategy, the Director is empowered to propose funding levels 
and initiatives he believes are sufficient to do so, which 
generally must then be submitted to the Office of Management 
and Budget in lieu of the agency request. The certification 
authority is a powerful tool to enable the Director to exercise 
control over individual Federal departments and agencies to 
ensure the adequacy and coordination of national resources to 
fight drug abuse in America.
    I believe that ONDCP has generally been highly successful 
in keeping the Nation's focus and resources on the critical 
priority of reducing the supply and reducing drug use in 
America. The many positive signs and trends that Director 
Walters reported this past year, after the negative trends 
during the previous administration, clearly demonstrate the 
difference that an office can make when strong and effective 
leadership combines with sound policy.
    For example, the 2003 Monitoring the Future survey showed 
an 11 percent decline in drug use by 8th, 10th, and 12th grade 
students over the past 2 years. The finding translates into 
400,000 fewer teen drug users over 2 years, confirming that 
President Bush's 2-year goal has been exceeded. Similarly, the 
2003 Teens Partnership Attitude Tracking Study [PATS], survey 
corroborated the earlier reports that showed an 11 percent drop 
in youth drug use. We are beginning to see reductions in coca 
cultivation in Colombia.
    These victories are very encouraging to American families, 
treatment professionals, and law enforcement personnel who are 
working so hard to prevent drug use in America. However, 
significant challenges remain in virtually every area of coca 
and opium poppy producing regions in the Andean region.
    The fiscal year 2005 request for the Andean Counterdrug 
Initiative will fund projects needed to continue the 
enforcement, border patrol, crop reduction, alternative 
economic development, and democratic institution building and 
administration of justice and human rights programs in the 
region. The ACI budget provides support to Colombia, Peru, 
Bolivia, Ecuador, Brazil, Venezuela and Panama. The 
subcommittee is concerned, however, that the 13 percent 
reduction between 2003 and the administration's 2005 request 
for the initiative, from $841 million to $731 million, stifles 
the hard-earned successes that have recently become evident.
    Of the $731 million requested, $463 million will be used to 
continue to support Colombia's unified campaign against drug 
trafficking and narcoterrorists. Funds will maintain support to 
the Colombian Army's aviation program and drug units, as well 
as the Colombian National Police in the areas of aviation, 
eradication, and interdiction.
    It is important to understand that Plan Colombia is an 
initiative of the Colombian Government and the Colombian 
people. The solution must come from within Colombia, and the 
plan is an effort to address a broad spectrum of social, 
economic, and political issues that cannot be resolved in any 
other way.
    I have met with President Uribe several times, and he is 
committed to this. It is equally apparent, however, that 
American assistance to and cooperation with the plan is 
critical to make it work and that the full support and 
commitment of the administration and Congress is essential.
    Along the same line, the plan is not just about Colombia 
but is representative of an approach that we hope we can 
reinforce to spread throughout the entire Andean region. I met 
with Peruvian officials and learned of many difficulties their 
government is facing. I have met with Ecuadorian officials as 
well who are concerned about traffickers moving over the border 
along the Putumayo. We must consider the great potential and 
the great challenge as well as the constant need to consider 
the big picture as we proceed.
    Today, we have invited witnesses from the administration to 
discuss the Andean Counterdrug Initiative, the efforts and 
results so far, the strategy in the coming year, and the 
adequacy of the resources requested. Appearing first from the 
Office of National Drug Control Policy, we have Director John 
Walters. After the first panel, from the Department of State we 
will hear from Assistant Secretary for International Narcotics 
and Law Enforcement Affairs, Robert Charles. And from the 
Department of Defense, we have Assistant Secretary of Defense 
for Special Operations and Low Intensity Conflict, Thomas 
O'Connell.
    Our thanks to all of you for your willingness to testify 
and for accommodating us into your schedule. I look forward to 
the opportunity to discuss our progress and how best to meet 
the counternarcotics challenges today.
    Now I would like to yield to Ms. Norton, if she has any 
opening statement.
    Ms. Norton. Thank you very much, Mr. Chairman. Yes, I do.
    I have just come back from Guantanamo, a trip to 
Guantanamo, but we stopped in Florida and visited and were 
briefed by the Southern Military Command. I must say I was 
impressed by what they had to say about the Colombian effort, 
offering statistics, offering maps and graphs for the 
proposition, documenting the proposition that we are making 
progress in Colombia.
    Much of that progress--of course, we have limited number of 
troops there. I think 400 is the absolute number we can have 
there. But they gave great credit to civil society, to the 
leaders of Colombia for developing the civil society in that 
region actually for the first time, including crop development 
initiatives, saw apparently far fewer human rights violations, 
so that people are less afraid, far less afraid of the military 
than they were before. I can only hope that we will see 
comparable success on our end of the drug traffic, which has 
been so elusive to us for so many decades.
    I note that the President's budget includes a 9.6 percent 
increase over 2004 for drug treatment. I am not sure where that 
money goes. I will be most interested in it. But I was pleased 
to see it, especially at a time when we are all ready for 
substantial cuts.
    I am very concerned, continue to be very concerned about 
treatment, especially as the money or funds available goes up. 
Because anybody can pop up and say they do drug treatment. 
There are almost no standards for deciding whether or not any 
civilian in society with no training can come up and claim to 
do drug treatment. It is so urgently needed. Particularly is 
drug treatment key to reducing crime in big cities.
    Essentially what you have, when you see all of this crime 
in big cities, what you are seeing is nothing more and nothing 
less than the development of the drug economy, which has 
replaced the jobs economy in those cities. Grown men and young 
men especially are growing up where there is no economy. They 
do not say, well, I guess I am going to sit here and see if I 
can find myself a minimum wage job. They go out looking for 
jobs that they believe are comparable to the jobs in the rest 
of society; and what they do in many of our communities is to 
bring their own economy, with all of the violence and all of 
the conduct and family disintegration that comes with a drug 
economy.
    So I am very pleased to see some increases, and I will be 
very interested to see how we are going to use the drug 
treatment money. I just wanted to report that when there is 
progress and you see that kind of progress, you are heartened, 
particularly in a hard-core area like this.
    Thank you, Mr. Chairman.
    Mr. Souder. Thank you.
    Mr. Ruppersberger, do you want to make an opening 
statement?
    Mr. Ruppersberger. Thank you, Mr. Chairman. Good afternoon.
    Well, we have talked about it a lot, but I am sure that the 
facts and statistics show that drugs still--drugs are the 
biggest threat to our society. I think the statistics now, and 
correct me if I'm wrong, are that almost all violent crime, 
about 90 percent of it, is drug-related. Is that correct? Is 
that close to where the numbers are?
    Mr. Walters. Well, it would include--you include people who 
are under the influence of drugs when they commit their crime, 
yes. Ninety percent is not involved with violence in protection 
of the drug business but under the influence. It may not be 
quite that high, but it is in the 70 to 80 percent range.
    Mr. Ruppersberger. OK. First, it is important we take this 
fight to the source of production before the drugs reach our 
borders. By stemming the production of illegal drugs at their 
source, we decrease the spreading of our local law enforcement 
resources even further. We need to ensure that there is an 
appropriate amount of resources.
    One of my biggest concerns is that we do have to deal with 
the issue of terrorism. It is very serious, and we are dealing 
with that issue, but that we don't take away the resources from 
our fight against the war on drugs, both at a local, State, and 
Federal level. I think we are going to have to keep our eye on 
that ball on a continuing basis. I am sure you are coming here 
today and you will tell us where the administration thinks they 
are, but I am just very concerned.
    My colleague, Congresswoman Norton, was right about the 
issue of the drug treatment. You are never going to really 
resolve the problem unless you deal with the actual drug 
treatment itself, and that is something very important.
    One thing, I always like to promote my district. We have to 
stay involved in resources and technology; and, right now, I 
would think, especially in the area that we are going to talk 
about today, the use of the unmanned air vehicles like the 
Shadow--and why I am saying that, that is manufactured in my 
district, in Maryland, Maryland's second congressional 
district. But I want to maybe develop some of those issues in 
this hearing, too, about the resources that are there, what the 
needs are, to make sure that we can continue to stay on top of 
this issue.
    Mr. Souder. Thank you very much.
    I ask unanimous consent that all Members have 5 legislative 
days to submit written statements and questions for the hearing 
record and that any answers to written questions provided by 
the witnesses also be included in the record.
    Without objection, it is so ordered.
    I also ask unanimous consent that all exhibits, documents, 
and other materials referred to by Members and the witnesses 
may be included in the hearing record and that all Members be 
permitted to revise and extend their remarks.
    Without objection, it is so ordered.
    As you know, it is standard practice in this committee to 
ask witnesses to testify under oath. So Mr. Walters, if you 
would stand and raise your right hand.
    [Witness sworn.]
    Mr. Souder. Thank you very much. Let the record show that 
the witness has responded in the affirmative.
    We thank you very much for your leadership in the office of 
National Drug Control Policy and look forward to your 
statement.

 STATEMENT OF JOHN WALTERS, DIRECTOR, OFFICE OF NATIONAL DRUG 
                         CONTROL POLICY

    Mr. Walters. Thank you, Mr. Chairman. Thank you, Ms. Norton 
and Mr. Ruppersberger.
    Without objection, I would ask that my written statement be 
included in the record, and I will just cover briefly a few of 
the highlights and then follow the interests and the issues you 
have with your questions.
    I want to thank you all for the attention that you have 
paid to this issue. I see that in Congresswoman Norton's visit 
to the facilities in Florida, which allow us to give I think a 
better indication of what is going on with more detail, as you 
said. It is an impressive group of people working very hard.
    Chairman Souder and I have traveled long distances together 
to not very exotic or nice places, and he has been tireless in 
working with these issues and has been willing to tell the 
truth when some people that we met with didn't want to hear it. 
I appreciate that and am grateful for the relationship that we 
have been able to cultivate since I took this position.
    The central focus of the Andean initiative, as you know, is 
to attack the major source of cocaine and heroin and a major 
source of heroin consumed in the United States. The United 
States and the Government of Colombia, which has been the 
principal focus of this effort, although it involves, as you 
mentioned in your opening statement, multiple nations. The 
Colombia strategy focuses on three parts: eradicating almost 
the entire illegal drug crop each year, regardless of 
replanting efforts; second, interdicting and arresting drug 
shipments and traffickers involved in shipping these 
substances; and, third, pressuring trafficking organizations 
through extraditions and other organizational attack 
initiatives.
    There is good news I think on all of these fronts, although 
there certainly is more that we obviously have to do. Thanks to 
truly unprecedented efforts by the Uribe administration in 
Colombia and funding by the U.S. Congress for the Andean 
Counterdrug Initiative, as the administration has requested, we 
have made much progress in all of these areas.
    Due to an aggressive aerial spraying campaign, coca 
cultivation and production in Colombia dropped 15 percent in 
2002. This is the first such decrease in over a decade. As you 
mentioned, the Putumayo region, which in 2001 produced almost 
20 percent of the world's coca, there was left only 1,500 
hectors of coca in April 2003 when we surveyed. This is a 
number down 96 percent from the nearly 40,000 hectors of coca 2 
years before.
    Opium poppy cultivation in Colombia we estimate dropped as 
well in 2002 by 25 percent. The effect of massive aerial 
eradication continued in 2003 and is being evaluated, but we 
anticipate a further significant impact driving down cocaine 
cultivation and production even more.
    Most importantly, the same is holding true throughout the 
Andean region. I am pleased to report that even with the 
monumental results that we see in Colombia we are not seeing a 
resurgence of coca in Peru and Bolivia. Coca cultivation 
actually dropped in Peru in 2003, and slight increases in coca 
cultivation in Bolivia in 2003 did not translate into an 
increase of cocaine production potential since the new fields 
there did not reach maturity. Moreover, coca cultivation in 
both of these countries remains dramatically lower than we saw 
during most of the last decade. Overall, coca cultivation in 
Peru and Bolivia combined declined by 1,400 hectors between 
2002 and 2003, countering any significant concerns regarding 
the so-called balloon effect.
    Interdiction is also an area where we think we have made 
remarkable progress, although more needs to be done. Colombian 
interdiction efforts were strengthened again under President 
Uribe. Colombian forces destroyed 83 cocaine production labs in 
2003, surpassing their previous record by over 30 percent. They 
also captured more than 48 metric tons of cocaine and cocaine 
base, 1,500 metric tons of precursor substances and 75,000 
gallons of precursor chemicals calls.
    Interdiction efforts continued to meet with success at sea 
as well in 2003. Colombian forces increased their success rate 
against go-fast boats, and the U.S. Coast Guard's use of force 
helicopters continue to play a crucial role countering the go-
fast threat as well.
    Overall, 2003 U.S. support and interdiction activities in 
the transit zone resulted in the seizure of 140 metric tons of 
cocaine. I should add here for context that we estimate U.S. 
consumption at 250 metric tons roughly, so we are making a 
significant blow and causing significant costs to meet that 
demand of flow.
    The reintroduced Colombian Air Bridge Denial program in 
August 2003 ensured that air traffic would not easily make up 
for the interruption in maritime smuggling. In 6 months since 
it started, 16 suspicious aircraft have been intercepted, 10 
aircraft were forced to land, and 8 of these aircraft were 
destroyed on the ground. No one was killed. Mexico and several 
of our partner nations in Central America also took significant 
steps to increase the difficulty of smuggling illegal drugs 
through their airspace. In addition, organizational attack 
efforts under the Uribean administration have resulted in an 
unprecedented number of extraditions; 104 narcotraffickers have 
been extradited to the United States since August 2002 when 
President Uribe took office.
    The Uribe administration has produced all of these 
accomplishments while also making the most significant advance 
in human rights in Colombia in a generation. As you indicated, 
Congresswoman Norton, the Government of Colombia reported 
significant reductions in all indicators regarding human rights 
abuses in 2003. For example, homicides were down 20 percent, 
massacres down 33 percent, victims of massacres down 38 
percent, and number of kidnappings down 26 percent. Enforced 
displacements of individuals were cut by 49 percent. For the 
first time in history, the Government of Colombia has a 
presence in all of Colombia's 1,098 municipalities, extending 
the protection of rule of law throughout the countryside. As a 
result of these advances, the Uribe administration has created 
a Colombia which is safer and more democratic and more a 
government of rule of law.
    If we can continue our successes with eradication and 
maintain our interdiction performance, keep pressure on major 
traffickers, and reduce the attractiveness of the drug 
business, we will create and continue to strengthen a 
disruption of the market. That is our goal.
    In conclusion, the good news is that we have seen in the 
Andean region a particularly robust and growing effort against 
the major sources of supply and those groups that engage in the 
production of drugs and violence that is a part of the drug and 
it funds--the drug trade funds in other areas of domestic life 
in this region.
    Domestically, as you mentioned, we have also seen good 
news. We have reduced demand by young people, exceeding the 
President's 2-year goal of a 10 percent reduction by reducing 
it 11 percent for young people. We are impatient for more 
progress. That is why we set, as you know, with the support of 
this committee, a 5-year goal of a 25 percent reduction in drug 
use in the United States. We believe in a balanced strategy. We 
have to have both treatment and prevention as well as supply 
control, foreign and domestic. We believe that thanks to the 
cooperation of our institutions in the United States as well as 
governments like that of the Governments of Colombia and 
Mexico, we have made progress and we have the hope that will be 
the basis for continuing progress.
    Thank you. I will be happy to take your questions.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Walters follows:]

    [GRAPHIC] [TIFF OMITTED] T5530.001
    
    [GRAPHIC] [TIFF OMITTED] T5530.002
    
    [GRAPHIC] [TIFF OMITTED] T5530.003
    
    [GRAPHIC] [TIFF OMITTED] T5530.004
    
    [GRAPHIC] [TIFF OMITTED] T5530.005
    
    [GRAPHIC] [TIFF OMITTED] T5530.006
    
    [GRAPHIC] [TIFF OMITTED] T5530.007
    
    [GRAPHIC] [TIFF OMITTED] T5530.008
    
    [GRAPHIC] [TIFF OMITTED] T5530.009
    
    [GRAPHIC] [TIFF OMITTED] T5530.010
    
    [GRAPHIC] [TIFF OMITTED] T5530.011
    
    [GRAPHIC] [TIFF OMITTED] T5530.012
    
    Mr. Souder. Obviously, in the course of a year, we try not 
to have you come up here every 2 weeks, but you have so many 
different areas that overlap with our subcommittee, and today 
we are focusing on the Andean Counterdrug Initiative in 
particular. I am thrilled that Assistant Secretary of the 
Department of Defense, Mr. O'Connell, is here, because we have 
a number of things that overlap in his area. We are first 
thrilled that they kept the post and that he is there, and we 
will be looking to ask some questions.
    But I wanted to address a few questions toward you 
regarding the budget, because the Department of Defense and the 
Department of Homeland Security are absolutely critical when 
you get into source interdiction areas. I sit on the Homeland 
Security Committee, partly because the Speaker has been very 
concerned about whether sources would be diverted. So let me 
ask you a series of questions and then you kind of relate to 
some of these, and we can follow up in writing, if necessary.
    In the report that you just released yesterday, you had the 
following: Interdiction forces from the Department of Defense 
and Homeland Security registered impressive interdiction 
successes during 2003. But you didn't have any details listed 
or explained in the report. The next reference to the 
Department of Defense is on page 51 in the appendix where we 
see a single line that the administration's request for the 
Department of Defense drug control funding is down from 
$852.7--it was down $50 million, from $908.
    Now how does the Department of Defense strategy relate to 
your national drug control strategy? Because two brief 
references for something, an agency that is spending at minimum 
$852 million a year is pretty significant.
    We had a hearing on Afghanistan last week. Clearly, 
Afghanistan is a huge problem. We know we have multiple 
problems there with terrorism and heroin going to Europe, but 
our heroin is coming from Colombia and Mexico. Our cocaine is 
coming from there. Much of the marijuana is coming from there. 
We have this huge amount of money being spent. What do they do 
with almost $1 billion in the name of drug control strategy?
    Then if I can give you the other one with the Coast Guard, 
and then relate these two things together. We are very 
concerned about and would like some specific data on the HITRON 
helicopters being pulled back into the ports, that certain 
things, even though there has been--it says that the HITRON 
helicopters and go-fast interdiction were 35 percent of the go-
fast interdictions. We bought these helicopters and these boats 
specifically for counternarcotics, and most of them have now 
been pulled into the harbors.
    What we would like is some specific data on the number of 
hours and ship days, how this arrival and transit zone is being 
impacted. I understand that you get certain benefits from 
having things at the harbor, at the arrival zones, assuming 
that they arrive right at the harbor and don't find somewhere 
away from the harbor. But, clearly, if we can catch them before 
they get on our soil, there is less space to work with. 
Clearly, if we can get them in the source zone, we are in a 
tighter area as they move out to water and as they move out to 
land and as they go into every city in the United States.
    So I know that is a complex question, but I am curious as 
to why there wasn't more about the Department of Defense and 
how you think we should work with the Department of Homeland 
Security in budgeting questions. Because we can't give up the 
war on narcotics, where we know we have 20,000 dead a year, for 
potential losses in homeland security.
    Mr. Walters. Let me try to take those parts and create a 
better context. Some of this we will have to supply for the 
record in terms of utilization of HITRON systems and so forth, 
but let me give some context of what we are trying to do.
    I certainly hope that nothing in the drug control strategy 
suggests that the contribution made by the Department of 
Defense isn't central and critical as well as the Department of 
Homeland Security. It is. And that has been a principal reason 
I think why we have been able to do such a good job with 
interdiction.
    Let me back up and say that when I took over this job a 
little over 2 years ago I think the general concern was that 
the war on terror inevitably would cause a degrading of the war 
on drugs, both in terms of its priority in people's minds for 
both demand, reduction, and supply activities at home and 
internationally, particularly in interdiction, but also 
internationally. I think that what I have seen over the last 2 
years is exactly the reverse. We have had, frankly, some of the 
biggest declines in demand we have had in a decade. I actually 
think from my--you talk to as many people around the country as 
I do, it is easier to talk to young people about responsibility 
now. They are aware that the things that we used to take for 
granted can't quite be taken for granted and that people are 
making sacrifices every day, and for most of them it is easier 
to link what we ask them to do to what is healthy for them I 
think and have that connection. It is not universally true, but 
I think it is more likely and I think that environment on the 
domestic side is helpful.
    What we have done on terror, in fact, we have gotten a 
great deal more cooperation from a lot of the foreign 
governments. I think we have new tools that you have given us 
in working on sharing intelligence from national security 
forces with law enforcement. Some of these were modeled in the 
case of terror on things that we have done in the drug arena, 
and they have worked. But I think also what we have had in the 
specific case of the movement of drugs in this hemisphere from 
south to north is a building on institutional structures that 
have been put in place with a lot of hard work over a number of 
years.
    Today, we have the ability in the interdiction realm to 
identify more real targets with places and movements that we 
can interdict, as you probably saw at the Southern Command just 
recently, than we always have resources to go after and take 
down those targets. The reason is that we have been able to be 
smarter. We do not have to spend hours and hours and huge sums 
of money patrolling random areas. We have an idea of where they 
are and we can go try to interdict them, and that is why 
interdiction rates are up with less money.
    Now we still have to maintain some of those systems, and 
DOD does spend a lot of money, but, again, they are a critical 
partner for us in interdiction, but they are also a critical 
partner in a lot of domestic activities. They support things 
like domestic marijuana eradication. They support--they 
provided for years a lot of support in law enforcement in terms 
of translators and linguists. In fact, we have tried to work 
with the Department of Defense on recently, as we have put more 
demands on our uniform personnel for other national security 
functions, they rightly had to pull some of these people or had 
them pulled in two directions. We are trying to work to make 
sure we support ongoing operations, that we improve our 
effectiveness and respect the multiple needs that you know and 
that I know you have supported as a Congress that we have in 
other realms.
    In the area of the HITRON specifically, they have been an 
enormously valuable tool, as you know. The reason is that the 
previous means by which interdiction forces in some cases were 
circumvented were the so-called go-fast boats, high-speed, 
medium-sized or small surface craft who could outrun 
interdiction forces. What the HITRON does is provides a 
helicopter-based platform, as you know, to go out and interdict 
the ship, the boat, not allow them to outrun and, if necessary, 
to use disabling fire to stop the boat by disabling the engine 
fired from the aircraft.
    A couple of months ago, the last time I checked, every time 
a HITRON packaged engaged a target, there was a 100 percent 
interdiction rate. I don't think it gets any better than that, 
obviously.
    Now these packages have in some cases had to be pulled back 
because of demands for security in our ports during heightened 
levels of alert.
    Again, part of what we are doing here with DOD as well as 
with some special homeland security forces is blending our 
capacities to take multiple threats and to use resources as we 
can. Sometimes we have to make some compromises. But, again, 
last year we had a record level of seizures in the transit 
zone, and we have improved with Department of Defense through 
providing equipment, including some high-speed surface boats, 
to the Colombians their ability, as you mentioned, to go out 
and interdict ships as they come off the Colombia coast.
    What we are trying to do is add layers of power against 
vulnerabilities that traffickers have, and I think what you see 
as a result of that is the higher levels of interdiction. Part 
of what we need here is to blend long-range maritime patrol 
aircraft that help the vector surface forces into the final 
closure and takedown and the maintenance, obviously, of radar 
platforms to do this. But it is not a perfect system, but never 
has the cost of doing business from South America been higher, 
and we believe we can accelerate this to the levels which we 
all want, which we all set as a goal, is reducing the 
availability on our streets so that we can help reduce demand 
and reduce the consequences. Our goal is not to cope with the 
drug problem, as you know; our goal is to reduce it both on the 
demand side and the supply side.
    So we can give you some of the specifics. There have been 
some compromises made, but I think overall, thanks to a lot of 
people working a lot of extra hours, we can be proud of the job 
that has been done by management and consolidation and the 
powers and the resources that we have been given.
    Mr. Souder. You fundamentally agree, though, that there has 
been a reduction in DOD and Department of Homeland Security 
resources in the source zone and transit zone areas?
    Mr. Walters. At times there has been a reduction. I would 
have to actually look back to see over the whole year, because 
we have had quite an enormous willingness where they can to 
lean forward, to provide equipment and aircraft. I know there 
are been press reports that there have been some reductions or 
some people complaining, but I would not be surprised if in 
fact, when you add it all up, there hasn't been. But I haven't 
added it up for the whole year, but we will be happy to provide 
that information.
    Mr. Souder. We would like in specific detail, especially if 
the counternarcotics budgets remain roughly the same but their 
expenditures are less in the area where the counternarcotics 
are. The question is, what are the dollars being used for? Yes, 
there are efficiencies, but part of our responsibility as an 
oversight committee and yours is, in effect, overseeing the 
entire narcotics policy, is to make sure we fight aggressively 
for that share of funds, or come to Congress, as we do 
appropriations, and say, look, in order to address this 
question, this is what we have to do, and not have a reduction 
in one area while we are, say, spending a disproportionate 
amount in Afghanistan, which is a problem but not as much of a 
domestic problem.
    Mr. Walters. Let me just mention in that regard, I noted in 
your opening remarks a reference to decline in the actual 
Andean budget. That is not what my budget numbers show, so I 
would like to work with your staff and make sure that I either 
figure out what I don't understand about your baseline here or 
that we get you information that we have that we haven't done 
before.
    Mr. Souder. Thank you.
    Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    I have a question, again, coming out of the briefing that 
we had in Southern Command. What was new to me and a bit 
frightening were the links that appear to be in the Caribbean 
and in South America between terrorist groups and narcotics 
traffic, money laundering. They had maps that showed us where 
terrorist groups--that doesn't mean that they are like al 
Qaeda, all of them plotting with a plane to come over us. They 
may be collecting money to send places. They range from 
Hezbollah to, you know, several different kinds of terrorist 
groups. What was frightening was the clear link, though, 
between these groups and the money they get, how they use it, 
and narcotics traffic itself.
    I would be interested in what you know about that and what 
you think you can do about it, particularly given the Andean 
effort and the good work that is going on in Colombia.
    Mr. Walters. Yes. I think that maybe the simplest way to 
put it that I think engages both our own domestic reality and 
what is going on in these countries is, of course, the drug 
business depends on two things, we know from long history. It 
depends on initiating young people of teenage years to the use 
of dangerous addictive substances, and the largest buyers are 
those who are dependent. So it depends on selling, dependency, 
and addiction, and selling essentially poison to our children. 
That business is antithetical to a free government, rule of 
law, democracy opportunity. So I think that is the basic and 
underlying reason why these organizations have to use violence 
and terror to carry out their business. Because no decent 
society, no government that cares about democracy and 
opportunity can tolerate it.
    So these businesses--and they do it in our own streets, as 
you know, as well as in these countries--have not shied away 
from using intimidation, violence and, when they become strong 
enough, to use them against institutions of government, as well 
as whole communities, villages, and others.
    As the consumption increased in some areas, including the 
United States, we have provided a lot of money to these groups. 
As the President has said, it is not acceptable that the 
American drug consumer is the single largest funder of 
antidemocratic forces in this hemisphere. We had made some 
progress against a larger----
    Ms. Norton. I am not nearly as interested in antidemocratic 
forces. We have seen them all along. I am trying to find out 
how terrorists have linked into the narcotics traffic and the 
money laundering traffic, what kinds of real seams exist among 
these forces, or if you have seen them.
    Mr. Walters. Well, the reason I said that is much of what 
we have seen is these forces have become a merged group in most 
areas, not in all areas. Some of them do a kind of taxing of 
drug flows through their area, some of them may facilitate 
parts of the drug trade, but large groups that are terrorist 
forces are also now involved in simply drug trafficking as a 
principal--if not the principal--way in which they raise money 
for guns and ammunition, they keep people in the field, they 
engage in bribery, intimidation, and violence.
    So my comment was meant to indicate that what has happened 
is in some cases what may have been differences of ideology or 
purpose have now in many, many cases been mingled into simply 
violent trafficker organizations and the wealth from those 
organizations have become largely dependent on crime--drugs 
certainly, kidnapping, bank robbery. As we have ended kind of 
state sponsorship of some groups as the cold war ended and some 
of these groups which may have gotten support from other 
nations in the past, what has happened increasingly is that the 
funding for such wide-scale violence as well as particular 
organizations that want to use terror for some political ends 
have become increasingly involved in the drug trade.
    Ms. Norton. Most frightening was to hear how you come from 
some South American countries without a visa and end up in the 
United States and then come straight up into the rest of--
because of the way in which traffic, legitimate traffic flows, 
you get yourself into a car--we are looking for people to come 
at us with an airplane, looking more closely at simply the 
way--the transit between Latin America and the Caribbean and 
here.
    One further question. I was interested in your testimony at 
page 11, 104 traffickers under this President--under President 
Uribe, 104 traffickers have been extradited to the United 
States, 68 in 2003 and 14 already this year. I didn't know what 
to compare that to. That sounded good to me.
    Under this regime, has it been easier to get extradition? 
Is there any barrier to extradition? What about prosecuting 
these foreign nationals when you get here in the United States? 
Are we getting indictments?
    Mr. Walters. Yes.
    Ms. Norton. I mean, are we getting convictions?
    Mr. Walters. There were extraditions under President 
Uribe's predecessors, but the number and rate of extradition 
has increased under President Uribe. We, of course, have 
indictments as a prerequisite for requesting the extradition, 
but I believe the last time I checked that for all extradition 
from Colombia we have a 100 percent conviction rate. So we 
don't extradite on cases that we do not have a strong case.
    Ms. Norton. Is that generally a problem in those----
    Mr. Walters. No, there has not been a problem. We have 
worked very well with the Colombian Government. In years past, 
there was a difficulty. Extradition is always somewhat tricky 
with individual sovereignty.
    Ms. Norton. Do they have the death penalty?
    Mr. Walters. They do not.
    Ms. Norton. So when we extradite, we promise not to----
    Mr. Walters. We extradite under conditions that limit the 
sentence. We had one problem with an individual that was 
extradited in New York, as you may be remembering, for, among 
other things, killing a police officer, and that is a mandatory 
life sentence minimum, and that person was convicted. I spoke 
to President Uribe, as did other U.S. officials, because we try 
to indict under conditions that have extensive sentences but 
not life. They understand that in that case we had a bit of a 
problem, but that conviction stands.
    Ms. Norton. I am very pleased to see you getting around it. 
It was kind of terrible to let the fact that most of the world 
doesn't have the death penalty interfere with our getting hold 
of these nationals because we are so rigid that we don't want 
them. And so this common-sense notion, go get them, throw the 
book at them here, seems to me to be far more realistic, 
practical and in keeping with doing justice in these cases.
    Thank you very much, Mr. Chairman.
    Mr. Souder. Thank you.
    Mr. Ruppersberger. The purpose of the hearing today is the 
Andean Counterdrug Initiative, and since the initial funding, 
which was about $1.3 billion for the ACI in fiscal year 2000 
emergency supplemental, has there been a reduction in the 
amount of drugs coming into the United States from Colombia and 
the Andean Mountain region? You made some comments earlier in 
your statement. I wasn't sure whether they related to that. Do 
you have any figures as it relates to that issue?
    Mr. Walters. Let me be clear how we can measure this. We 
measure three things, essentially. We measure the area under 
cultivation each year. We produce an estimate, and we haven't 
had the 2003 estimate done for Colombia yet, but in my oral 
remarks I referred to the estimate that is done for Bolivia and 
Peru. We should have the Colombian estimate in the next couple 
of weeks. So we measure the area of land under cultivation from 
year to year.
    We then also provide an estimate of what we think that area 
could produce in total drugs, cocaine, heroin, and marijuana, 
and we compare them from year to year. We have seen a decline 
and we have seen a substantial decline equivalent in the last 
year we have a comparison--that is 2001, 2002--of 100 metric 
tons of processed cocaine. We also saw a substantial reduction 
in the cultivation of heroin poppies in Colombia between these 
2 years, but I hasten to add the heroin poppy problem is 
smaller. We don't have vast fields.
    Last year, in 2002, we had an estimate of approximately 
140,000 hectors of coca growing in Colombia. In comparison, 
there was an estimated roughly 2,500 hectors of poppy in small 
plots. It is less than 2 percent of what we see with regard to 
coca. So some of these things, as they get smaller, obviously 
it is a little harder for us to detect.
    Second, we produce a report about interdiction between 
these production countries and our coast and what we believe is 
an estimated flow and how much we take in in interdiction. We 
do not have precise information on the so-called pipeline; that 
is, how much time it takes from growth to the final processing 
and movement. We have not seen a dramatic decline in the flow, 
although we have seen, as I say, a decline in the cultivation 
and we believe that affects the processing. But if we 
understand this, if these numbers are in the ball park, we 
should begin to see flow changes in the coming months. We have 
not seen that yet.
    Finally, what we measure is availability on our streets in 
the form of largely price and purity. Generally what happens 
is, when drugs are more plentiful, the price sometimes goes 
down, but the purity goes up. When they are not plentiful, 
generally the first thing you see is the purity goes down. 
Because most of the users, because they are addicted, are 
basically spending their disposable income on the drug. If you 
jack the price up, they go into crisis and start detoxing, so 
you lose your customers. So basically what happens is the 
purity will generally decline.
    We are not, because we have not seen in a broad way a 
change on the street. But, again, consistent with what we know, 
about 6 to 9 to 12-month delay times in processing and flow and 
stockpiling, we should be seeing that in the coming year. We 
think this is a critical year.
    Mr. Ruppersberger. But those numbers aren't there, but you 
are waiting to see it. Isn't the vulnerability of the cocaine 
industry, though, at the cultivation process?
    Mr. Walters. It is one of the vulnerabilities. The danger 
has been that because it goes over a wide area and because, 
unlike the success we are having in Colombia, governments have 
been reluctant to use massive spraying because it disrupts a 
large part of the population frequently in poorly governed 
areas. So what we have done is gone after also the 
organizations and gone after the structures that link them in 
transit and distribution to the United States.
    Mr. Ruppersberger. Because, basically, I would say almost 
all of the cocaine that comes to the United States comes 
through Colombia and then through Mexico, is that correct? And 
then about 75 percent of it goes to Mexico?
    Mr. Walters. About 70, 75 percent of it.
    Mr. Ruppersberger. And then goes to our street. And we are 
trying to get to the bottom line to stop it getting to our 
street as much as we can.
    We had a hearing last week about Afghanistan and the heroin 
issue there; and again eradication, or whatever you want to 
call it, was a major issue there. And the Karzai--I was over 
there about a week and a half ago, and that is one of Karzai's 
biggest issues, because the warlords and the other people are 
making so much money and that undermines their economy also and 
their ability to create other jobs.
    Do you think--how would you compare Afghanistan to Colombia 
as far as our eradication and our plans for successes between 
Colombia and Afghanistan?
    Mr. Walters. The biggest difference is we don't have a 
security situation in Afghanistan where we could conduct 
programs with the kind of robustness you have in Colombia, as 
you probably saw when you were there. The security situation, 
because we still have al Qaeda, Taliban elements that we are 
trying to bring to justice, have created a problem of extending 
governmental authority out to those areas.
    Now Afghanistan doesn't have the institutions that Colombia 
does and the army, the police, the institutions of justice. We 
are trying to stand those up. So we are trying, essentially, as 
the British sometimes say about Afghanistan, it is sometimes 
hard to find things to bolt on to. You are trying to build, but 
you haven't got much as a foundation.
    The difference is we can go faster because of the 
leadership in Colombia and because there is more robust 
infrastructure there. We are trying to build that in 
Afghanistan, but I will say, as you no doubt know, we are now 
at a time where, for the first time in modern history, we can 
actually change the world dynamic of world opium. That is not 
coming here, but it is poisoning a lot of people, a lot of 
instability, lot of violence. It will not be easy. We have to 
be patient. But with the help of some allies we have the chance 
of going after the remaining bread basket of opium poppy. It 
will be a struggle, but it has never been possible before.
    Mr. Ruppersberger. I see my time is up. Can I have one more 
question?
    Mr. Souder. Sure.
    Mr. Ruppersberger. You mentioned pipeline. I am going to 
talk to you about a different pipeline, because I am little 
concerned about this issue, the importance of a Cano Limon wall 
pipeline as it relates to the United States. Why are we 
spending $98 million of HCI funding to protect military funding 
that has nothing to do with the war on drugs?
    Mr. Walters. Well, this was originally put forward by both 
the Colombians and our personnel in the country because it is a 
major source of revenue for the government. We are trying to 
help the government there take over more of the financing and 
operations. The pipeline was under attack principally because 
it is a revenue source for the legitimate Colombian Government. 
It also was a target of some of the guerilla groups in the area 
that was contested. So the effort is to both provide greater 
security and to provide a means for legitimate business to 
provide taxes and support for the Colombian Government. It is a 
small part of what we do, as you know, but it was----
    Mr. Ruppersberger. Well, it is $98 million.
    Mr. Walters. I haven't been watching in so long, I don't 
think that is real money. I understand.
    Mr. Ruppersberger. I know we deal in billions and trillions 
around here, but $98 million is still a lot.
    Following up to that question; is reducing the supply of 
the drugs reaching the United States the primary goal of the 
ACI or is it preserving democracy and security in the Andean 
region? And are these to any extent, these two, competing 
objectives? And that ties into what I asked the question about 
the pipeline.
    Mr. Walters. Right. We think they are necessarily 
complementary objectives. There is no such thing as a 
narcodemocracy. There are tyrannical, unstable, violent forces 
that are involved with drugs that attack institutions of 
democratic order and remove the possibility of legitimate 
economic development and opportunity.
    We need to work together. Now we don't believe that 
necessarily allows us to use all counternarcotics money for a 
variety of security interests, but in Colombia and in this 
program specifically we have asked and Congress has given us 
authority to work with the Colombians under specified 
limitations to work on counterterror activities as well as 
counternarcotics activities. You gave us the ability to 
overcome the fact that, because the paramilitaries and the FARC 
were both traffickers and terrorists, that they got protection 
that they wouldn't have gotten if they were just traffickers. 
So we corrected that difficulty. But we understand we have to 
balance and we have to be able to show that the moneys are 
being used, and I think the Colombians have been pretty good 
about showing--they understand that the U.S.' interest of the 
people is to expect to reduce the flow of drugs here as well as 
reducing the harm drugs do there.
    Mr. Ruppersberger. And terrorism, too, will benefit us in a 
lot of ways, and maybe we can get some of that money over to 
the drug side.
    Mr. Walters. Thank you.
    Mr. Souder. Just a few followup questions.
    Last week, I asked Karen Tandy from DEA this question and 
Mr. Charles. Have you assisted in the formation or do you have 
a copy of any written Department of Defense policy and guidance 
to troops deployed in the Andean region and other source 
countries like Afghanistan with respect to discovering poppy 
and coca fields, labs, warehouses and drug shipment convoys in 
the Andean region? We understand that there at least was such a 
Department of Defense policy, but we wondered whether you have 
seen a copy of such a policy.
    Mr. Walters. I haven't. I want to make sure when I answer 
this I understand what you are asking. I have not seen a 
separate policy stating to DOD personnel you can do this or 
should do this and shouldn't do that. Now it is possible that 
there is some kind of operational guidance or instructions for 
rules of engagement that I wouldn't have necessarily reviewed, 
but I certainly don't remember discussions of this, and--I want 
to be clear.
    The issue is that, as some people have asserted to the 
press, that people in DOD have been told, do not do 
counternarcotics things. I am not aware that that has been the 
case. That has not been the character of my discussions with 
the senior members of the Department of Defense. And while we 
are clear that Congress and policy set certain limits on what 
personnel from various agencies do and we abide by them, I 
think it is unfair to suggest that the Department of Defense is 
somehow inappropriately turning a blind eye. They have been 
very, very important and very, very willing to help us in these 
areas, but especially in places like Afghanistan, it is 
difficult. And in Colombia we have tried to maintain the limits 
that Congress has put on us about what U.S. personnel do and 
what they should not do from various agencies.
    So I want to be clear and fulsome in answering your 
question. I am not aware that we have done anything with the 
Defense Department or the leadership of the Defense Department. 
I think it is completely unfair to say that they have said, 
don't do things that are connected with counternarcotics.
    Mr. Souder. What our frustration is, and this is--I mean, I 
know what the Department of Defense's frustration is, is that 
they are trying to tackle Afghanistan, Iraq. Haiti explodes, 
and all of a sudden they need to put people in Haiti. They have 
tremendous demands on the Department of Defense. I am not 
trying to criticize that. But we can't function in the war on 
narcotics without the Department of Defense. Without SOUTHCOM, 
there is no Andean initiative to speak of, without JTF-6 and 
training and helping on the border, without defense 
surveillance access.
    Let me just say I was pretty hard on the last 
administration about diverting resources to Bosnia and the 
Balkans and about taking surveillance planes up for oil spills.
    If you are going to say it, you ought to say it: We are 
taking these resources because we are not focused on the war on 
narcotics.
    But if you're going to say there is $850 million in the 
budget, the question is, has that been consulted and worked 
with ONDCP, which is supposed to be coordinating national drug 
control policy with the Department of State in the Andean 
region with DEA, that are supposed to be our counternarcotics 
enforcement people around the world. Are you all working 
together?
    Mr. Walters. I think there is even more accountability at 
the Department of Defense. The Department of Defense from 
before this administration created a central transfer to 
account for the funds that are directed to counternarcotics. 
When you appropriate money to that account, they go for 
counternarcotics, and we work with them. Sometimes there are 
stresses and strains on that budget. In fact, as you probably 
are aware, we have inserted that same system on some other 
multifunction agencies' top, with some of their complaints, but 
we have inserted that system as a way of controlling accounts 
so our drug budget now reflects what you really spend on drugs. 
And we took out accounts largely that we could not tell you 
that, when you appropriated the dollar, it was going for either 
a demand or supply reduction purpose.
    I think there were concerns about the priority that 
counternarcotics played in some agencies, including Defense, 
when the administration started. They have stepped up and spent 
the money; they have been there, and they have helped us solve 
problems. They have been aggressive in this area despite all 
the other tasks they have had.
    I think that some of those concerns, whatever they may have 
been, sourced--I can't speak of before I took office, but I 
don't have those concerns. The Department of Defense is a good 
ally and they have helped us solve problems. Now they are going 
to face issues, as other agencies have--FBI, for example--of 
being called away on some other things and trying to readjust 
resources.
    We have tried to help work with the Department of Homeland 
Security, for example, in providing aircraft and other support 
that are necessary, that may substitute for some of the 
activities the Department of Defense is doing. We ought to 
continue to do that, just as we backfilled FBI's positions with 
our requests for DEA to maintain pressure. It takes some time 
and there may be a gap.
    We are mindful of the need to have--that is why my office 
exists. There is no department of drug control. There are 
multiple agencies that have to work together because they can't 
all be combined. And so the only way we can get a united effort 
is that we work together well. My office has been charged with 
that responsibility. We work with others in carrying it out. I 
take your point very seriously and understand it to be our 
responsibility to get at that issue.
    I do not believe the Department of Defense in any way, 
shape or form is failing to carry out its responsibilities 
here. It will continue to have to be something that we look at 
day by day because of the demands placed on them and the 
demands placed on some of the other agencies.
    The reason we have the results that, as you know, 
Congresswoman Norton talked about, at JTF SOUTH is that DOD has 
stepped up and helped us get some of those resources there, and 
they have helped us work with some of our allies to strengthen 
the overall system that gives us hope that this year is going 
to be a very important year in the effort.
    Mr. Souder. I very much appreciate in your announcements 
yesterday and the President's announcements that we are going 
to go after the steroid type of abuse in America. He said that 
in the State of the Union.
    And look at the abuse of prescription drugs. We just did a 
subcommittee hearing on OxyContin and other prescription drug 
abuse in Florida; and clearly, it needs to be a major focus 
because there are more deaths and more problems from any of the 
prescription drugs than there are from cocaine and heroin 
combined.
    You referred in your written testimony as well as, briefly, 
in your verbal about the problems with Canada, the problems 
with so-called ``medicinal marijuana'' in the United States and 
how that is breaking up even our drug-testing laws and our 
ability to enforce worker protection laws and the 
transportation industry with this ruling in Oregon that could 
undermine these things.
    We have many different fronts we are battling, but the 
reason the Department of Defense question looms here is that 
when we are doing interdiction, we have to be coordinated among 
those agencies because--and I didn't even mention meth, which 
is what is obsessing most Members of Congress in our districts. 
If it gets into our urban areas, it will be like a crack 
cocaine epidemic. Right now, it is more in the rural areas and 
it can be produced domestically, which is a whole other 
challenge. We have to have that kind of coordination at the 
international level.
    The second thing is, in your answer to Congressman 
Ruppersberger's question, that one of the challenges here is 
that we have been spending a lot of money in the Andean region, 
and we all agree that Uribe seems to be our best hope. It 
appears that it hasn't spread as much as we feared into the 
other countries.
    It is perplexing to figure out why, if our interdiction is 
up and our eradications up, that we haven't moved the price and 
supply. Yet we are all trying to figure out if there are 
stockpiles.
    And it is a great goal to have democratization; it's in our 
region, stability in Colombia, and we have been putting a lot 
in their legal system. But ultimately, the reason the American 
taxpayer has supported this is to see some reduction in the 
United States.
    And I understand what you said about Afghanistan not having 
certain regions that were secure, which is certainly true in 
the eastern half of Colombia, in their jungles, too, as they 
move farther out. And we don't have forward landing locations 
and they are harder to get, but then we ought to see price 
increases.
    Something on the street is very troubling in this process, 
and part of the question comes, are we missing more than we 
thought we were missing, in which case, we come back to the 
resource question again about diverting resources. Because if 
we are, in fact--and we can see from the spring that we are 
covering a higher percentage of the fields--something's missing 
in this equation.
    Mr. Walters. We are working on that part of the problem 
because I, too, have the concern that we need to make a better 
case not only to Congress, but also others that have to make 
funding decisions and live with supporting these policies.
    Let me point out one of the things we are looking up, 
because I think we should talk to you and your staff in more 
detail on what we think is happening here, once we get the 
latest survey number for Colombia, which is due out in a couple 
of weeks: The United States is the largest market. But of the 
roughly 250 metric tons of cocaine we think is coming to the 
United States, roughly 150 is going to Europe now and maybe 50 
is going into Brazil, and then there are some other substantial 
amounts that may be consumed in the region because the region 
is developing a consumption problem.
    That means that overall effects, 15, 20 percent, can be 
spread across a couple of markets. And while those are rapid 
and we want to accelerate them, with the pipeline you have to 
be reasonable about how much buffering there can be in the 
final ability to take it at the end stage of the pipeline. 
That, I think, though, is an argument for maintaining and 
increasing the pressure on the market as rapidly as possible, 
which is what we are trying to do with interdiction, what we 
are trying to do with the attack on the organizations and what 
we need to maintain with regard to the eradication.
    We don't want to go to stasis because that will encourage a 
ballooning; it will encourage what we have seen before. If we 
let this cancer continue, it metastasizes into other areas and 
establishes itself. So when we kill it in one place, it moves 
around.
    Our goal is not to chase this around like mercury on the 
top of a desk. Our goal is to shrink it and crush it and crush 
it at various stages so it can't regenerate the supporting loop 
of production and consumption. That is why we believe we have 
to have balance in both prevention and treatment.
    But also in the law enforcement realm, we must do a better 
job on money and do a better job on domestic enforcement. We 
have created--and I don't want to go too far afield. We have 
created for the first time a consolidated, organizational 
targeting list, as you know, with DEA, FBI and our intelligence 
services. We have created the organizations that market to the 
United States as major producers. We are trying to make sure we 
keep that current.
    And our most important task for the future, that is new, is 
that we want to take those organizations down rapidly. I will 
call it ``harvesting.'' The longer they exist--and we have very 
good people providing indictments, but our view--and I know 
what Administrator Tandy's view is, that after we indict them 
for 300 years of offenses, indicting them for 600 years of 
offenses does not help us. Let us go get them.
    Some of that requires our cooperation with other 
governments. Some of that requires coordinated operations here.
    We are working, as you know, with the HIDTA program, OCDETF 
program, to create a combined picture of what this enemy on the 
battlefield looks like and then act on it as rapidly as is 
necessary to cause significant business collapse. This year, I 
believe is critical in that regard, too. We have created this 
structure. We have law enforcement, and the Justice Department 
has never been in the position it is now in to aggressively and 
committedly go after these groups.
    We have to use these programs and this relationship and 
this plan to take the structure of the business of drugs and 
drive it into recession.
    Mr. Ruppersberger. That's a good plan, and I really think 
you are working hard and you have a lot of competent people 
that are fighting this war.
    You talked about the issue of balance between what you are 
doing, say, in Colombia on eradication and going after the 
major dealers and then the issue of drug addiction and 
treatment. How would you balance those two out as far as 
reaching our ultimate goal?
    Mr. Walters. If we don't reduce both supply and demand, we 
have basic failure, what everybody talks about, but they don't 
really sometimes appreciate. If we simply reduce demand and 
don't reduce supply, we have cheaper, more potent drugs that 
are available to addict more people more easily. If we simply 
reduce supply and not demand, we have money chasing scarce 
drugs that encourages production to grow or new sources of drug 
abuse to develop.
    What we have to do if we are going to reduce and maintain 
reductions is reduce them together and put institutions in 
place that will maintain those reductions. That is why we asked 
for and we just got from Congress an additional $100 million to 
add to the $2 billion in block grant treatment money that we 
have already programmed and have on board.
    We have asked for $200 million----
    Mr. Ruppersberger. Is that money getting to the streets?
    Mr. Walters. We are about to release the new treatment 
money in the next week--the proposals for that money.
    We are seeking $200 million for next year. We have to make 
a case, you know, in this budget environment. We asked for more 
money for drug courts and we got less last year. And we are 
coming back and asking for even more this year. We also want to 
continue to strengthen prevention. And as the President said--I 
recognize it's controversial, but he asked me what was the 
single biggest additional thing--after last year's talk about 
treatment, what was the single biggest contribution we could 
make institutionally to improve the declines and accelerate 
them.
    I told him that I thought it probably was too 
controversial, but I recommend student drug testing. And then 
he said, we are going to do it. He mentioned it in the State of 
the Union.
    The biggest opposition I have seen to this so far is a 
misunderstanding of what it is. It cannot be used to punish. It 
must be used confidentially. It must be used to get young 
people help. And what it does do is, it takes and gives young 
people permission to do what many of them want to do and are 
afraid to do now because they think the cultural pressures--
they are expected, as teenagers, to try dangerous addictive 
substances.
    If you go to schools that have testing, the biggest thing 
you see when you visit other schools that I have seen is that 
kids feel safer. And what we are allowing; we are not 
mandating, as you know, we are allowing institutions to come 
forward so that those places that have seen--and you have 
talked to them, as well as I have, have seen kids die of 
overdoses, die of drug-impaired accidents, and feel they don't 
have any choice, but to watch more young people be victims and 
more families and communities suffer.
    I tell them; you've got a choice: Test. It changes what 
happens in private business. It has changed what happens in the 
military and effects changes in safety-sensitive positions. 
But, it will not automatically eliminate all substance abuse, 
but it will dramatically reduce it and it will stay low.
    It is a public health measure that we have used to change 
the face of childhood disease in the United States. Nobody 
considers a tuberculosis test as a requirement to begin school 
to be a human rights violation or a civil rights violation; 
they consider it to be sound public health policy.
    We understand addiction is a disease. The way it is 
transmitted in child; from child to child, it is a behavior 
that causes, the younger it starts, the greater risk of 
addiction and dependency later on. We can change the future of 
the drug problem for generations to come on the demand side by 
simply seeing that significantly fewers number of our children 
begin using these substances in their teenage years.
    Mr. Ruppersberger. I agree with you. It's going to take a 
lot of education, and where is the President on that issue?
    Mr. Walters. He said in the State of the Union he was for 
drug testing. Nobody would say that because we're third rail. 
We have had remarkably little criticism because, I think, 
people have connected the dots between taking addiction as a 
disease and understanding the public health measures that we 
use that are confidential, that are used to get help and are 
not punitive to go after disease.
    The excuse about, ``Well, it seems to be too harsh,'' it is 
not a harsh method.
    Mr. Ruppersberger. My concern, always, whenever Federal 
money comes to local government, is by the time it goes to the 
Federal bureaucracy, State bureaucracy and gets to the local, 
half the money is gone. And if we are going to develop a 
program like that, to have a program where the money goes 
directly to the local schools and develop that program, then 
you need people who are there, probably health officers or 
whatever, to develop the program to identify how we are working 
with that program.
    Mr. Souder. An administrative person.
    Mr. Walters. I agree with you, and we made $2 million worth 
of grants last year, directly to school districts. We have 
asked for a total of $25 million for the next fiscal year; we 
would like to do another $2 million.
    There has been an issue about the program that is being 
earmarked. We are going to try to work with the Department and 
with the Congress to get those resources there, but we are 
making this direct funding.
    It is true that the Federal block grant for Safe and Drug-
Free Schools, over $500 million, allows testing as an expense. 
My office is now going into, in addition, to other parts in the 
country to look at how we can help make sure the resources that 
you appropriate, most of which the $12.5 billion my office is 
responsible for goes to States and localities.
    Mr. Ruppersberger. Why not pick some major cities for a 
pilot program to show successes? I guarantee the mayor of the 
city of Baltimore, Martin O'Malley, has made it one of his 
highest priorities, and I'm sure they would volunteer. You have 
to start somewhere.
    And pilot programs, you can show that helps you get things 
through Congress and gets you more funding because, look, it 
isn't working. We are impacted all the time and we are working 
hard. Competent people like you are doing everything you can, 
but the system isn't working to do what we need to do.
    And I think what you just said was very relevant. How can 
we help you, maybe persuade the President, to get this moving? 
And again, my suggestion would be a pilot program, and I am 
sure the chairman, who cares very much about this issue, would 
very much try to take leadership in that role and pick one or 
two areas to move forward.
    Mr. Walters. The President is ready. He wants to move it so 
much that he raised this to the level of one of the programs he 
mentioned in the State of the Union.
    We are doing four drug testing summits around the country 
this month to help to inform people about both the money we 
want to make available, the state of the law and the 
technology. We would like to work with Members of Congress and 
your district to get more places. If they want to go now, Safe 
and Drug-Free Schools money can be used for this purpose. We 
want people to apply for the money.
    Mr. Souder. We will do some hearings on drug testing. 
Today, we are trying to focus on Andean. And yesterday with the 
big statement, as the director knows, I have been active in 
drug testing issues for over 15 years and the Souder amendment 
on the higher ed bill has been one of the more controversial 
pieces of legislation in America.
    So we will continue to look at how to make that effective 
because prevention efforts need an accountability with it. 
Treatment efforts need an accountability effort.
    But you can't just do the testing. We have to make sure 
that if they are tested that we have ways to help them, and it 
is a supplemental effort as well.
    I thank you for your testimony today. We may have some 
additional written questions on the Andean. In particular, it 
is very important because we cannot forget that is where the 
source of most of our at least external narcotics are coming 
from into the country; and we thank you for your efforts.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that both witnesses 
responded in the affirmative, and it is almost 5 days since Mr. 
Charles has been here. I appreciate the willingness of both of 
you to come; and we are pleased to welcome a former staff 
director of this subcommittee, who originally developed much of 
the antinarcotics strategy for this subcommittee, Mr. Charles, 
at the State Department.
    And we are pleased that Mr. O'Connell is at the Defense 
Department in the position he is in. As you have heard before, 
and again today, my concerns are not directed at your office, 
but trying to strengthen and make sure your office has the 
power and influence in the Department of Defense and to work 
with the other agencies in a coordinated fashion like it 
historically has.
    I am looking forward to both your testimonies.
    Mr. Charles, we will start with you.

 STATEMENTS OF ROBERT CHARLES, ASSISTANT SECRETARY, DEPARTMENT 
 OF STATE, INTERNATIONAL NARCOTIC AND LAW ENFORCEMENT AFFAIRS; 
AND TOM O'CONNELL, ASSISTANT SECRETARY, DEPARTMENT OF DEFENSE, 
         SPECIAL OPERATIONS AND LOW INTENSITY CONFLICT

    Mr. Charles. Thank you, Mr. Chairman, and I want to say it 
is always a pleasure to be here in front of you because you 
care so deeply and have led for so long this overall fight. I 
feel like I've stepped up to a smorgasbord every time we talk 
about these things. I will launch here into something that I 
think is extremely important and that is the supply side in the 
Andean region initiative.
    Mr. Chairman and members here and not here, thank you for 
inviting me to discuss the Andean Counterdrug Initiative and 
the State Department's continued efforts in this critical 
program. The initiative represents a significant investment by 
the American people in a region that produces the vast majority 
of the drugs arriving here in the United States.
    If this initiative were targeted just at saving some of the 
21,000 lives lost to drugs last year, it would have been and 
would be the right thing to do. But there is more to this 
bipartisan, multiyear initiative than even that noble aim. It 
is also a bulwark against the threat of terrorism in Colombia, 
Bolivia, Peru, Brazil, Venezuela, Ecuador, Panama and here at 
home. In short, it is a regional hemispheric and national 
security program with direct implications for homeland security 
and for our well-being here in the continental United States.
    One need look only as far as Haiti to see that drug money 
and the instability that follows it can be institutionally 
coercive to the point of breakdown. In Colombia and elsewhere 
in this hemisphere, the link between drug money and terrorism 
is incontrovertible. All this reinforces the wisdom of Congress 
in empowering the State Department, and INL in particular, to 
protect Americans and our allies in this hemisphere by 
strengthening the rule of law, building law enforcement and 
justice sector capacity, cultivating nondrug sources of income 
and stopping heroin and cocaine from being produced and shipped 
to our shores.
    In the future, as in the past, strong congressional support 
will be critical to fully achieving the end game. The end game 
is a hemisphere free of drug-funded terrorism, free from drug-
funded corruption, and young and old democracies subject to 
less drug violence and increasingly free from the scourge of 
drug abuse. That end game or goal applies as plainly to 
Baltimore as to Bogota. It applies because it matters.
    I am here to tell you that the climb is steep. I will not 
give you all good news, but I will tell you that the climb is 
steep and, at the same time, we are gaining altitude. We are 
making real progress toward that end state. And the Andean 
Counterdrug Initiative is a major part of that palpable 
progress.
    Let me pause here to say something else a little 
unexpected. Management of these programs is also essential. 
Congress provides the money, but we at INL must provide the 
proper management of these program dollars.
    I have a special duty as the custodian of these dollars to 
make sure they go where they were intended. Accordingly, I have 
ordered a top-to-bottom program review of the entire stable of 
INL programming, beginning with the largest programs. I have 
put penalties on government contracts; moved from cost-plus to 
performance contracting, insisting that bonus justifications in 
this region match the awards; imposed new performance measures; 
moved to multiple contracts, where possible; and had staff 
senior executives of these contracting companies down to 
readjust their thinking and begin reviewing past financial 
practices.
    All of this is basic oversight, and it guarantees, or hopes 
to guarantee, that we will make the best possible use of 
dollars to stop drug production and drug-funded terrorism 
before these menaces reach U.S. soil.
    The investment you have made is bearing fruit. Drug 
production is down. Traffickers are being arrested and 
extradited. Legitimate income streams are being 
institutionalized. And the rule of law is expanding. Our 
security development and institutional assistance to the 
judicial and law enforcement sectors are having a genuine 
measurable, positive impact. While the results are coming in, 
it is my view that we are approaching what could be called a 
tipping point in Colombia, in the Andean region and ultimately 
in this hemisphere.
    The strategic centerpiece of the Andean Counterdrug 
Initiative is INL programming in and related to Colombia, the 
source, as was indicated earlier, of roughly 90 percent of all 
the cocaine reaching the United States. Colombia provides 
upwards to 70 percent of the heroin reaching our streets and is 
also a leading supplier of cocaine to Brazil, Europe and points 
east.
    Besides being a producer of the raw material for cocaine 
and heroin, Colombia is a major manufacturer of refined drugs. 
It is the headquarters of major criminal and narcoterrorist 
organizations. What we do in Colombia affects us here in the 
United States, but also affects regional security and the 
growth of economic opportunities for those in these 
democracies.
    So the big picture is this: Over the past 2 years, long-
awaited ACI funding has hit the ground and it is making a 
difference. With INL support, the Colombian Government has 
eradicated both coca and heroin poppy to paste. That should 
begin to seriously deter future growing even as it wipes out 
larger and larger percentages of the crops currently turning 
into cocaine and heroin.
    The physical risks associated with this program have been 
great, but the strategy is proving successful. Colombians and 
we have lost assets and personnel to this enemy. Three American 
hostages still in Colombia, though not INL employees, are a 
continuing reminder that we are dealing with a dangerous group 
of terrorists who do not respect the rules or principles of 
civil society.
    In 2003, INL and the Colombians worked closely together to 
bring 127,000 hectares, at a 91.5 percent effectiveness, for a 
net result of 116,000 hectares eradicated. At the same time, 
alternative programs in Colombia resulted in manual eradication 
of an additional 8,441 hectares.
    Similarly, we sprayed 2,821 hectares in opium regions, with 
1,009 hectares manually eradicated, in short, significant 
progress. And in 2002, our efforts reduced coca cultivation by 
15 percent and poppy cultivation by 25 percent. As Director 
Walters mentioned a moment ago, we are waiting for the 2003 
numbers, but we have other reasons to believe that these, too, 
will be good numbers.
    Our efforts have brought us close to the tipping point 
where sustained suppression of illegal crops, growing regional 
interdiction and law enforcement, as well as the seeding of 
these alternative streams of income, will convince growers that 
further cultivation is a course with increasing costs and risks 
and diminished profitability.
    Predictably, it is also true that the work is getting more 
dangerous. In 2003, INL aircraft took more than 380 hits. We 
lost four planes. So far this year, we have taken 29 hits on 
our assets. I am fully reviewing the INL air wing operations to 
make the most effective use of our resources and to plan for 
the future.
    But the security environment, frankly, is ugly. Security of 
our air fleet is the highest priority. We are increasing 
intelligence coordination and protective measures to make sure 
each spray mission is as safe as humanly possible. If it is not 
safe to launch a mission, the mission does not fly.
    Protecting the lives of the brave pilots who fly this 
program, knowing the risks, is essential. Getting results from 
their outlay of bravery is our second but sustaining mission. I 
want there to be no question about one thing: This is a first-
rate group of pilots whose mission matters to all of us and I 
am determined to protect them and the mission so long as the 
mission calls us out.
    This year as of February 29, 2004, we had sprayed 29,000 
hectares of coca and 691 hectares of poppy. That exceeds by 84 
percent the amount of coca eradicated during the same timeframe 
in 2003. Our eradication goal for this year was initially set 
high and, frankly, if it needs to be adapted to be higher, it 
can be adapted to be higher.
    We have worked out a spray program in full coordination 
with the Colombian police and armed forces. Depending on the 
2003 final spray results, we will review the spraying targets 
and adjust accordingly. Killing coca and deterring cultivation 
is the twin aim; and again, the aim behind that is to tip the 
balance as fast as that tip will occur. Within 18 to 24 months, 
I would say, we expect to enter a maintenance phase where we 
are spraying smaller, more isolated coca fields instead of 
larger fields as we have in the past.
    Make no mistake, in Colombia, ACI funds have been the vital 
strength that has helped a strong president, President Uribe, 
to secure his democracy and security. We helped to fund the 
establishment of police in 158 municipalities, many of which 
have not seen any government security presence in years. For 
the first time in history, there is now a police presence in 
all 1,098 Colombia's municipalities. This is an enormous step 
forward and it reinforces everything that we are doing on the 
counterdrug side. To demonstrate or to give you an example of 
the hunger for security, I throw out just one recent event.
    San Mateo is a municipality that last had a real Colombian 
national police presence in June 1, 1999, when FARC killed 
seven San Mateo police. In April 2003, our program installed a 
new 46-man police department. San Mateo school children formed 
a human corridor and cheered as the police passed by. San Mateo 
declared a day of holiday and fireworks went off through the 
day.
    There is both hope and appreciation for what you are doing 
in Colombia. And the U.S. Congress, through its leadership, is 
getting and should be getting the credit for having initiated 
this. Results were mentioned earlier by the director, but I 
want to highlight a couple: Colombia's murder rate, down by 20 
percent, lowest figure since 1986; Colombia's illegal armed 
groups committing 73 massacres, which sounds terrible, and it 
is, but it is compared to 115 massacres in 2002; the number of 
victims affected by those massacres down 38 percent from 680 in 
2002 to 418 in 2003; in 2003, there were 2043 cases of 
kidnapping registered, 32 percent fewer than in 2002; and 
finally, terrorist incidents, 846 in 2003, but down 49 percent 
from the 1,645 in 2002.
    On the interdiction side throughout the region and in 
Colombia there has been a significant movement forward also. 
Colombian forces seized 70 metric tons of cocaine base and 
cocaine hydrochloride in 2003. In addition, 126 metric tons of 
cannabis were seized. We have an Air Bridge Denial program 
which, in short, was initiated in August 2003, interagency 
between us and the Colombians and with coordination 
internationally. Since that time, it has caused; 10 planes 
suspected of drug trafficking have been forced down; 8 have 
been destroyed. The program has resulted in 6.9 metric tons of 
drugs being seized regionally.
    As of March 1, 2004, the Colombian air force and its 
regional partners have already seized another metric ton of 
illicit drugs. In Peru and Bolivia, where one might expect some 
kind of balloon effect, we are, in fact, showing a significant 
movement forward.
    Everything is not rosy, and I don't want to paint the 
picture that we are done and we can go home. While Peru 
represents a 15 percent reduction in cultivation, which is 
marked and shows demonstrated progress on both eradication and 
alternative development, all the parallel pieces of this 
puzzle, it is also true that in Bolivia, where the Chapare was 
always the engine driving the illegal drugs into our market and 
into regional markets, drug production cultivation is down by 
15 percent.
    It is true where legal cocaine is permitted, you had an 
increase of 26 percent. We have now to turn the canons back on 
the idea of how do you look at this legal production and 
prevent diversion into the illegal market? To their credit, the 
Bolivian Government sees that as a real challenge and is up to 
the task and is pushing forward.
    Peru, again, enormous movement----
    Mr. Souder. You need to get to a summary. We have given you 
flexibility with your time.
    Mr. Charles. We are making significant progress. But we are 
making enough progress that at the end of the day, I think the 
investment is paying off and we will see it here on the streets 
of the United States.
    Mr. Souder. We will put your full statement in the record, 
and if there are charts and things you want to put in, you may 
do so.
    [The prepared statement of Mr. Charles follows:]

    [GRAPHIC] [TIFF OMITTED] T5530.013
    
    [GRAPHIC] [TIFF OMITTED] T5530.014
    
    [GRAPHIC] [TIFF OMITTED] T5530.015
    
    [GRAPHIC] [TIFF OMITTED] T5530.016
    
    [GRAPHIC] [TIFF OMITTED] T5530.017
    
    [GRAPHIC] [TIFF OMITTED] T5530.018
    
    [GRAPHIC] [TIFF OMITTED] T5530.019
    
    [GRAPHIC] [TIFF OMITTED] T5530.020
    
    [GRAPHIC] [TIFF OMITTED] T5530.021
    
    Mr. Souder. Mr. O'Connell.
    Mr. O'Connell. Mr. Chairman, distinguished members of the 
subcommittee, it is my distinct pleasure to appear before you 
today to discuss the President's budget request for 2005 as it 
relates to the Department of Defense with respect to our 
programs and policies that support the National Drug Control 
Strategy and to provide a current assessment of this strategy's 
effectiveness in the Andean region. I have a written statement 
that I will submit for the record and open with a short oral 
summary with your approval, sir.
    First, with respect to Colombia, sir, over 75 percent of 
the world's coca is grown in Colombia, and nearly all of the 
cocaine consumed in the United States is produced and shipped 
from Colombia. Colombia narcoterrorists receive a large 
majority of their funds from protecting, taxing and engaging in 
this illegal drug trade. These narcoterrorists seek to 
overthrow the freely elected Colombian Government, which is the 
oldest democracy in Latin America.
    Recently, the Secretary of Defense promised Colombian 
President Uribe increased support to the Colombian 
narcoterrorist effort, and I had the privilege of traveling to 
Colombia this summer with the Secretary and was witness to many 
of these one-on-ones between President Uribe and Secretary 
Rumsfeld.
    Colombia has made exceptional progress in fighting drug 
traffic and terrorism while improving respect for human rights. 
Colombian security policies have diminished the National 
Liberation Army and put the FARC on the defensive and pushed 
the United Self-Defense Forces of Colombia, also known as AUC, 
to the negotiating table. And these are extraordinary events.
    In order to maintain the momentum, we provided U.S. 
military assistance teams to help the Colombians fuse 
intelligence and operations, and we intend to expand this 
program this year. This is an increased effort to capitalize on 
the commitment by President Uribe in the fight against 
narcoterrorism.
    Other Defense counternarcotics programs supporting Colombia 
include the following: training; logistics; maintenance 
support; construction; radar support; intelligence collection, 
which is critically important; command and control systems; and 
equipment. We focus our joint programs on the development, 
equipping and training of strategically focused units within 
the Colombian military. These units include the Colombian 
Counternarcotics Brigade rapid deployment force, national urban 
assault unit, Marine riverine units and the LANCERO and 
COMMANDO battalions, which make up the largest portion of the 
Colombian special forces.
    The Counternarcotics Brigade provides security for 
eradication operations and conducts raids on drug labs and 
facilities. This unit has been extremely successful in the 
southern region of Colombia and has now expanded their 
operations throughout the country. Riverine combat elements 
patrol the vast river network in Colombia that is constantly 
used for trafficking illicit drugs. The training of the 
Counternarcotics Brigade and the COMMANDO battalion to pursue 
enemy leadership has already produced significant results.
    In order to support these new forces, we are assisting both 
the Colombian army and air force with mobility, including 
aviation training, logistics and maintenance support. 
Department support for the Colombian C-130 fleet has increased 
their operational readiness by over 60 percent. We plan on 
consolidating the Colombian helicopter logistics and 
maintenance under a joint program, allowing the Colombian 
military to increase their operational readiness by having a 
centralized repair parts inventory and a pool of qualified 
mechanics.
    I am extremely optimistic about the potential results in 
Colombia. Though much remains to be done, I do believe we are 
on the right path. Our continued support to President Uribe 
during this window of opportunity is critical.
    Quickly, the Andean region. While success in Colombia is 
essential, we cannot risk winning the battle in Colombia and 
losing the war in the region. The Department continues to fund 
the tactical analysis teams to the Andean region countries of 
Peru, Ecuador, Colombia and Bolivia. The tactics play a 
critical role in facilitating the timely and accurate flow of 
actionable counternarcotics intelligence between Department 
elements, United States and foreign drug law enforcement 
forces.
    With your permission, sir, I was going to address Ecuador, 
Peru and Bolivia. Since Mr. Charles has done that and Mr. 
Walters has, let me go to my conclusion. I do have comments 
relative to those countries in my written statement.
    I was privileged to spend some of my time in the military 
actually conducting clandestine and other counternarcotics 
operations in Colombia. It is tough and thankless work, and I 
recognize the difficulty that many of our colleagues at State 
and Defense have in this arena.
    We appreciate, sir, your continued support of our counter-
narcoterrorism initiatives, most notably the granting of 
expanded authority for Colombia. These initiatives play a great 
role in our efforts to aid key allies around the world in their 
fight against narcoterrorism.
    I thank you, Mr. Chairman, and members of the committee for 
your tremendous support. I look forward to answering your 
questions.
    I would like to make three quick observations, sir, from a 
personal standpoint. I would like to recognize several 
stalwarts in this war: the work that Ambassador Bill Wood has 
done in Colombia; his colleague, General Tom Hill, from 
Southern Command has done yeoman work in orchestrating the 
ONDCP and State in defense efforts in Colombia. And it has been 
a pleasure to watch them.
    I would like to publicly acknowledge the work of Special 
Operations, Command South, and the Seventh Special Forces 
Group. Much of the success that you don't see that is taking 
place in the jungles of Colombia is due directly to the ability 
of the State Department to set up people who are superb 
trainers, who have gone in and improved the Colombian Armed 
Forces, and you are seeing specifically the successes against 
the counter--against the narcoterrorists and, particularly, the 
FARC.
    And one thing I would like to add in terms of an 
observation. In my time in Colombia, I have come to be quite 
familiar with the tremendous destructive effect that the drug 
production has had in Colombia and neighboring countries. The 
fact that for every kilo of cocaine that comes out of the 
country, we pour 6 or 7 gallons of kerosene into the ecosystem 
is, to me, beyond belief and needs some type of publication; 
and the fact that 6 million acres of the rain forest have 
disappeared because of the cultivation of coca is something I 
think the press needs to publicize and Congress needs to make 
known to the American people.
    That concludes my statement, and I would be happy to answer 
any questions.
    [The prepared statement of Mr. O'Connell follows:]

    [GRAPHIC] [TIFF OMITTED] T5530.022
    
    [GRAPHIC] [TIFF OMITTED] T5530.023
    
    [GRAPHIC] [TIFF OMITTED] T5530.024
    
    [GRAPHIC] [TIFF OMITTED] T5530.025
    
    [GRAPHIC] [TIFF OMITTED] T5530.026
    
    [GRAPHIC] [TIFF OMITTED] T5530.027
    
    [GRAPHIC] [TIFF OMITTED] T5530.028
    
    [GRAPHIC] [TIFF OMITTED] T5530.029
    
    [GRAPHIC] [TIFF OMITTED] T5530.030
    
    Mr. Souder. I thank you both for your statements and 
comments, and we will make sure full statements are in the 
record, as well as any other materials that you want to insert 
today or in the next few days after you go through the hearing.
    I am going to start with some questions for Mr. Charles, 
and I yield to Mr. Ruppersberger and then back to Mr. 
O'Connell. Let me start with just a general--because you sat 
with me in meetings 10 years ago, where we saw the charts of 
the eradication and how we were tackling this and how we are 
making it, it starts to feel, as a baby boomer, a little like 
blowing up the bridges in Vietnam.
    And I understand that you are in the middle of this program 
now and you are trying to do an analysis, but it always seems 
like we are eradicating more coke every year and we are 
interdicting, most years, more than we previously interdicted; 
and yet the price isn't going down and the purity isn't going 
down, and that becomes troubling when we have to sell this 
program year after year.
    We have less terrorist incidents in the country. We are 
getting control of villages that previously didn't have 
control. People are less terrorized in the country. And, by the 
way, those villages wouldn't have been lost to control if it 
hadn't been for our cocaine and heroin habits.
    They had a small revolution going on, but it was a 
controllable one. We made it an uncontrollable one and we 
almost toppled this democracy. I am not saying we don't have a 
role in that; but ultimately, for the American taxpayers, one 
of the questions is--it is a sign we are hurting them, or they 
wouldn't be shooting down airplanes as much. But we need, 
particularly if we are going to continue the levels of effort 
in the Andean area, some sort of an explanation that was kind 
of hinted at by Director Walters.
    How much, for example, is Brazil starting to consume? Have 
they developed other markets that are taking some of the price 
and supply pressure off the United States, that have 
complicated this variable? And it would be nice to have it, if 
you don't have it today, for the record.
    We know consumption has gone up in the Andean region. 
Brazil would be a huge potential consumer. We have talked about 
Europe, but we just heard last week that almost all Afghan 
heroin is going into Europe and they have an increasing supply 
going into Europe. Any elementary logic would say that if their 
heroin is going into Europe, the supply shouldn't be increasing 
in Colombia. But one of the things that we are hearing is that 
one of the areas that we have been concerned about, although it 
has been difficult to prove in the maps, is that Colombian 
heroin is increasing. They aren't selling it to Europe if 
Afghan heroin is flooding Europe because the European demand 
hasn't gone up enough to absorb both markets.
    So would you kind of give a big picture of that as someone 
who sat in year after year, presentations from SOUTHCOM, from 
General Wilhelm and McCaffrey and General Hill, all very 
committed to this effort, all showing how we were going to do 
this, talking about the difficulty. Command and control 
systems, which our military has really helped them establish, 
but seemingly still facing the same problems.
    Mr. Charles. Let me give you an abbreviated answer, or let 
me try to abbreviate a long answer.
    Mr. Chairman, you are right. You and I have traveled all 
over the world together on this for more than 10 years. It is 
my assessment that this can be done. We have a historical 
precedent. When we tried to solve something, like curing polio, 
we didn't have a precedent per se. We do have a precedent here. 
In the late 1980's, when we did everything right, when we 
pushed the supply and the demand pieces together between 1985 
and 1991, when you were working with Senator Coats and other 
missions and cared about this, we drove the use of cocaine in 
this country down by 72 percent; and we dropped the number of 
people using marijuana from 21 million to 8 million, and we 
began to drive purity levels down and prices up. And all of a 
sudden it caught fire, and we were doing it.
    My candid analysis, which may kill me in the interagency 
process, but I will tell you, is that we let our guard down 
badly in the 1990's. And those meetings we were sitting in in 
1995 were meetings which described that nobody had ever funded 
the PDD, the Presidential Decision Directive, that was supposed 
to have provided source country support. And we also learned 
that the interdiction effort had essentially not been properly 
funded up, and we saw a backing down on these very important 
things that Congressman Ruppersberger has been talking about, 
the treatment piece and the prevention piece.
    And then, all of a sudden, you, with your leadership and 
others, began to push the envelope and said, we've got to get 
back in this business again.
    What happened is, around 1997 or 1998, the sort of critical 
mass occurred where you could get everybody involved and you 
got Plan Colombia funded. Plan Colombia is a major undertaking. 
Those moneys came online only about 2\1/2\ years ago. It took 
that much time to take the political will and drive it into the 
budget and drive it to this point. We are now only refining the 
significance of this message, as we lose more kids every year, 
that the prevention piece and the drug testing piece, these 
pieces that are so critical to really winning, are things that 
don't happen by themselves; that parents, by themselves--
parents are one of the great drivers, but if we don't help them 
and reinforce this message publicly, we lose.
    What is happening? Why have I just changed my uniform? I am 
completely convinced of all the same things I have ever been 
convinced of, that we sat with together on. What I see 
happening is that for the first time last year--not last year; 
not in 2003, but in 2002--this enormous up-tick in production, 
which we could not get our hands on--we were chasing the truck, 
we knew we needed to catch it and get on top of this supply 
stream, but it took that long for us to get there.
    In 2002, we got there. We suddenly reduced across the 
entire region, by 8 percent, the production of cocaine. We also 
began to tackle for the first time with great vigor, the idea 
that heroin poppies are coming out of Colombia. And 6, 7, 8 
years ago there weren't heroin poppies in any quantity coming 
out of Colombia. The heroin was coming from other parts of the 
world. So what did we do? We started to get serious.
    In 2003, what we see in Peru is a significant reduction. 
What we see in Bolivia, despite all the political turmoil that 
country is going through, we see that your leadership and the 
leadership of the administration saying, whatever else you do, 
do not let down your guard on this topic, this matters to us, 
it matters to you, and matters to the future of the region, is 
producing the level of conviction in the Meza government that 
is keeping that one under control.
    And now we see this other piece of leadership happening in 
Colombia, this idea that a president is willing to risk his 
life again and again and again to restabilize a country and 
wring out of it this ugly--in effect, this weapon of mass 
destruction on his own soil. To get rid of this stuff and get 
rid of these organizations, just as they got rid of the 
Medellin cartel. We are seeing suddenly the critical mass for 
that again.
    So why am I optimistic? Because that is why I use this 
phrase ``tipping point.'' It is the only way I can think of to 
express the fact that for 10 years we have sat frustrated, 
unable collectively to get our act together and tackle this. 
And now we are beginning with Congress, Republicans and 
Democrats, and the interagency--and all of us are committed to 
this--taking all the other priorities of the world and the 
counterterrorism piece on top of it, and we are saying we must 
take this moment and do this.
    On the counterterrorism piece, if I could just add this 
last point. I think in a way that helps us to articulate why 
this is so important, because throughout this hemisphere--and I 
can name them for you, and I will name them if you ask me--
there are four, five terrorist organizations afoot. And I think 
the fact that drugs fund these organizations, as Congresswoman 
Norton said, makes it doubly important that we win this time.
    If I were a betting man, I would say, we will win with your 
added support, but it is not going to happen in just 1 year, 
but is going to take several years.
    Mr. Souder. Part of the problem could be that, as we have 
established more control--and maybe, Mr. O'Connell, you can 
comment on this as well, and then we will go to Congressman 
Ruppersberger--that one of the things here that may be 
happening, which will be difficult for us, quite frankly, to 
pick up and do much about right now, is that we have been 
establishing more control in the traditional areas of Colombia, 
where the cities are, in establishing; and they have moved 
farther out in the jungle, destroying more rain forests, more 
of the Amazon basin where we don't have forward landing 
locations, and instead of moving where we are getting 
reasonably successful in the inner part of the Caribbean by 
moving to Surinam or over to Venezuela, where we have had our 
problems, or through Brazil and somewhat moving through 
different tracking routes in areas where we don't have as much 
coverage. If so, are we doing anything about it?
    Mr. O'Connell. I would be happy in a classified session to 
talk about some specific routes and specific intelligence 
operations that are taking place.
    But with respect to the interagency, we have recently in 
conjunction with Mr. Charles' office, DEA, Southern Command, 
JTF SOUTH and everybody that is involved in this to include the 
Navy, SOCSOUTH, our Colombian counterparts, have looked at how 
we approach a campaign season. And I think without going 
public, we have made significant strides, and they are looking 
at how we can better coordinate our activity. For every action 
we take, we know our adversary is going to take an opposite 
action, and we want to be prepared for that.
    With respect to the question of, are the Colombians taking 
control of previously ungoverned areas. Absolutely. Working in 
conjunction with State, the Department of Defense personnel 
down there have basically given the Colombians, through very 
superb training, the confidence to go out farther, to take the 
next step, to conduct the successful ambushes that have caused 
them to knock out FARC leadership.
    Once you have done that in combat, the people you are 
training and advising are much more likely to take the next 
step and say, we can use the stealth and we can beat this 
enemy. And consequently you have a lot of FARC walking in and a 
lot of AUC that have come to the table.
    And yes, the point you made may be absolutely true. It is 
pushing them to areas that previously were basically totally 
ungoverned; now they can move in, but they have to start from 
scratch, cutting and fertilizing and bringing in their 
precursor chemicals. I don't know what is going to happen with 
respect to that, but I do know we are making it more difficult.
    If I could answer the previous thing you made, does the 
Department of Defense have any instructions on what to do with 
labs, bear in mind that we are out there as advisers and not 
on-the-ground interdictors. But we help locate those labs, we 
describe how to destroy them and we assist as the Colombians do 
that. And the numbers that Director Walters gave and Assistant 
Secretary Charles gave, I think, are impressive in terms of 
what we have been able to at least put under wraps and 
interdict this year.
    So it is not U.S. forces doing that, but we play a very, 
very big role, as do our intelligence, surveillance 
capabilities and assets.
    Mr. Ruppersberger. What you are both saying is very 
relevant.
    To begin with, your comment about when the program worked, 
and I think one of the reasons why there was good team work, 
the resources were there. You can't solve this problem. It has 
to be from where the crop is grown, to the street, to the user; 
and there has to be a coordinated effort there, too. Most of 
what we are talking about here today in the Andean issue is 
that 90 percent of all of our cocaine and heroin comes into the 
United States from this area, correct?
    Mr. Charles. Ninety percent cocaine and 70 percent heroin 
on the East Coast.
    Mr. Ruppersberger. I want to get to Mexico. When you talk 
about why we are so concerned--and I think every time we have a 
hearing like this, we talk about the issue, are the resources 
there? We know you represent the administration and have to 
watch what you say. But, bottom line, once we get it started, 
this is just as serious as terrorism.
    Maybe we don't know it, but we have marketed terrorism. And 
part of our role is to oversee, do you have the resources to do 
the job that they will hold you accountable for doing the job? 
And where my concern is that the resources--and I am on the 
House Select Intelligence Committee and I know for a fact that 
the resources in South America are not the same resources that 
are going to Iraq or Afghanistan.
    So it is our job on this subcommittee to make sure we can 
work with you and find out what your needs are, so we can 
advocate for the end game, and we know what the end game is, 
the National Drug Control Strategy and what those priorities 
are.
    Let me ask you some specifics. We know that about 75 
percent of the drugs are going through Mexico; is that correct? 
And they are going through the drug cartels or gangs, whatever 
you want to call them. What efforts are we doing, are you using 
to follow the drugs? And, first, are we having political issues 
with respect to corruption or priorities in Mexico, and what do 
you think we need to do to stop that chain in Mexico? We have 
to stop it where it grows, but we have to deal with the issue 
of transportation.
    Mr. Charles. I will try to take a crack at that. We are 
working very closely with Mexico, more closely by far than we 
were 5 years ago when we sat in rooms like this and beat up the 
Mexican Government for being unable to work with us and us, 
unable to work with them. I am thinking in terms of a DEA 
Director, for example, who said very vigorous things about his 
inability to work directly with them.
    Mr. Ruppersberger. Mostly because of corruption.
    Mr. Charles. Yes. We are in a different world today. The 
Mexican Government has taken very seriously their own national 
security risks. In fact, they have made not only 
pronouncements, but they have established a high-intensity law 
enforcement group. The Attorney General's office has been 
completely reorganized. There is border coordination of the 
kind that involves data bases.
    Is it perfect? It is not. Is corruption a problem? It 
continues to be; wherever there is drug money in the world, 
there will be the high potential for significant corruption. 
But I will tell you that we are in a very different world, and 
I will detail to you in some after-questions that I will do in 
writing for you--what we are doing with Mexico and why it is 
leading us down the right path.
    I think the Fox administration, and I think I said this in 
one of my first opportunities to testify before Congress, the 
Fox administration is showing enormous courage in tackling the 
drug cartels, just as the Uribe administration in Colombia is 
showing enormous courage in tackling their problem. And we have 
to be up to the task, as you just alluded to, of supporting 
them. We have to be willing to work with them and drive forward 
intelligence sharing and a number of other things that we feel 
we can do.
    Mr. Ruppersberger. Normally, you find when you do better in 
war or this war against drugs, you have to have good 
intelligence. And a lot of times that intelligence comes from 
the streets.
    I think it is the same analogy with Iraq. We are going to 
get our men and women out of Iraq once we liberate that country 
and we train the men and women over there to secure their 
country. It's the same thing here. And you're telling me now 
that you feel good about Colombia and Mexico, their ability not 
to do it themselves, with our assistance and with our 
resources, but it is still an issue.
    Years ago, I was an investigator and prosecutor and did a 
lot of drug work. And we would have big wiretap investigations 
and conspiracies. But you take one out and there are two right 
behind. And sooner or later--and you piqued my attention when 
you talked about your numbers in 1986 to 1992.
    And again, I talked about a pilot program before, we need 
to look at what we did and find out what we did and why it was 
successful. The numbers show the results.
    Mr. Charles. Cornerstone issue was leadership. And one of 
the other things you saw then was interagency cooperation and 
coordination at an unprecedented level, with Admiral Yost at 
the Coast Guard and a whole range of other people.
    I think you have the configuration now with a new DEA 
administrator and a lot of really committed people and the 
congressional leadership to make that kind of thing happen 
again.
    And on Mexico, while we do give them resources and work 
with them, their own conviction, I would tell you straight out, 
their own conviction is very high. I was really shocked when I 
read how much marijuana and heroin they eradicate by hand every 
year. It's really incredible numbers. And our big challenge in 
Mexico is to institutionalize the gains we've made. We are 
playing on a muddy ball field and we are pushing the ball 
together up that field, but we cannot lose yardage. We have to 
institutionalize the yardage we've gained and keep working 
harder.
    I just would add two other quick things. One is, direct 
response to actually--the question I believe you had asked 
about indictments, I actually went to track. On the 70 percent 
increase in indictments out of Colombia that we got this last 
year, what happened to them? Every one of them who was 
extradited was charged, prosecuted and indicted.
    And a 70 percent increase in extraditions out of Colombia. 
Five years ago you couldn't have gotten anybody out of 
Colombia. We have seen a sea change in the willingness and the 
desire and the push to do that. Panama is following and others 
are following.
    The point I am trying to make on that point, you have an 
enormous wave of recognition coming that this is affecting 
their country, it's affecting their futures; and we are living 
up to our obligations in making it clear it is affecting us.
    On price and purity, this is a vexing issue. It has vexed 
me from the minute I got in here. And I will get to both of 
you, if you don't have them already, two studies before I took 
this job. One was on pure economics, showing that legalization 
simply will not work on pure economics and also showing that 
treatment is extremely important to the ultimate outcome for 
help.
    The second thing is a book that I wrote on narcotics and 
terrorism. And I think they are rock solid.
    The thing that vexes us all is why we are not seeing now as 
we begin to move into this new phase, essentially 10 to 15 
years later driving the ball up the field again and getting 
yardage and getting first downs and driving toward the goal 
line to keep more of these kids alive. Because 21,000 kids 
dying in a year is terrorism.
    Mr. Ruppersberger. This is one frustration, sitting here. 
In order to be able to take the administration's point of view 
that if, in fact, we don't have the resources or we don't have 
the leadership that we had in the 1980's, we need to know that. 
It is too serious of an issue.
    You have people come up and you ask specific questions, and 
they are reluctant, it seems to me, to really say it like it 
is. This is just as serious as the war against terrorism. We 
have to be direct and honest with ourselves and have the 
courage to stand up and say, this is what we need.
    Mr. Charles. I will say to that, you are absolutely right. 
When I first spoke with Secretary Ridge about this issue--and 
the number wasn't 21,000, it was 19,000. He said oh, my gosh, 
he said that is six Twin Towers in a year.
    This is an amazingly devastating problem. It is its own 
form of terrorism. So I agree with you completely on that.
    And I would note, on price and purity, I believe that what 
the director said is right, that there is a pipeline there. And 
as we wring excess capacity out of this market, there is excess 
capacity in this market, there's excess production.
    I'm not even saying it's in stockpiles. It is the fact that 
the capacity to respond to the eradication exists. At a certain 
point, you drain the pool and you begin to see a shape, and 
that shape is a drug-free hemisphere. You begin to see the 
beginning of it. And the further you drain, the more the shape 
you see until eventually you get it down. You may not eliminate 
drugs completely from the hemisphere, but you will eliminate 
them down to a point where you manage crime the way you do in 
Los Angeles or Washington.
    Until you get that excess capacity out of the system, which 
is what we are about to do now, thus, the tipping point, that 
is why I think we are headed there--until you get there, you 
will not see palpable gains, and all of a sudden you will begin 
to see palpable gains; and that is what we saw in the late 
1980's.
    Mr. Ruppersberger. When do you think that will be? If 
things are going the way they're going now, when do you 
anticipate that will be?
    Mr. Charles. I think every life doesn't repeat itself in 
perfect patterns, but I think that within the next 18 to 24 
months, we should begin to see something.
    Mr. Souder. I have a few specific questions I wanted to get 
on the record.
    On the Andean Counterdrug Initiative, there has been three-
quarters of a million dollars requested. Do you know how much 
each country is getting? Do you have that with you?
    Mr. Charles. We do, and I can get that for you. I don't 
have it at my fingertips, but we can get that for you.
    Mr. Souder. If we could have that, for the record.
    Also, kind of the subdivision of how you see that. I know 
this is going to appropriations and will continue to work, and 
also how you see the split in cocaine and heroin, to the degree 
that is split, but there are some specialty units that we work 
with on that, and how you see the split between what we give to 
the Colombians, what we pay for contractor support, and what 
goes to your State Department air wings and so on, so we can 
kind of get that read here of what is going to eventually come 
through the appropriations process.
    Also, if you--I was just down at Patrick with the INL wing, 
some of your thoughts for how you are going to assign, what is 
going to be assigned to the Andean region, if there will be 
changes in the upcoming year, or at least that you are 
considering; plans for recapitalization of the assets, and how 
you are going to use the wing. Similar for Mr. O'Connell. I am 
trying to decide which questions to pursue here.
    Mr. O'Connell. I can answer two that you directed to Mr. 
Walters, sir, and I think Mr. Ruppersberger and Ms. Norton both 
asked the same thing, and that basically was, you know, do we 
have a down-swing in DOD counternarcotics funding history 
which, of course, ultimately affects----
    Mr. Souder. And while you do that, you also said that 200 
million, I believe, of our 850, is for Andean; is that changing 
inside that?
    Mr. O'Connell. Approximately it will stay the same. And 
because the CTA--and the CTA is a good thing, and thank you for 
setting it up. It allows us remarkable flexibility. But when 
you have a fairly constant figure, or even a figure that is 
slightly decreasing, it becomes very difficult for myself and 
General Hill in particular, as a combatant commander, when he 
has a tipping point in Colombia as Assistant Secretary Charles 
indicated, when he has a requirement, and I bounce up against 
the zero sum game, I then am forced to go to the National Guard 
Bureau and say, sorry, I have to take $5 million across the 
board, and I have 100 angry Senators, I don't know how many 
angry Representatives, and 50 angry Governors because I have 
stripped National Guard money. Or, I go to another theater. So 
I am playing a zero sum game, and that is difficult. But those 
are decisions made in the Department over the years and 
accepted by Congress.
    But I would like to point out, particularly in response to 
your colleague and to Ms. Norton, in fiscal year 2003, the DOD 
request was $848 million, which was a slight increase over 
1995, 1996, all the way up to fiscal year 2003. That did drop 
in fiscal year 2004 to $817, but in fiscal year 2005, our 
request, the DOD request is up significantly from $817 to $852.
    Now, historically in those years, there was an 
appropriation action in fiscal year 2003 that added $23 
million, in fiscal year 2004 that added $18.2, and then there 
were supplementals. And I don't know if the Department, in 
their logic, is relying on these supplementals and saying, 
well, we will get to around a figure of $900, because you did 
add $34 million for Colombia, specifically in fiscal year 2003, 
$73 million specifically for Afghanistan last year. I don't 
know that is a defense strategy. Maybe that is not the best way 
to do business, but I am not in the comptroller business.
    But to answer Ms. Norton's question and Mr. Ruppersberger's 
question, the request in the last year has actually gone up. 
That may not be anything to hail as sufficient, but the answer 
is, we are going the other way.
    Mr. Souder. Can I do a followup on that part?
    Mr. O'Connell. Yes, sir.
    Mr. Souder. If 200 is going to Andean out of your 850, is a 
big percentage of that 650 for JTF and things like that that 
would still cover that region some?
    Mr. O'Connell. The JTF would be in a different line from 
the Andean support. Andean support is, if my folks back here 
feel that I am wrong, throw something at me; it is primarily 
for the activities in Colombia, and it goes for a whole range 
of activities that are tied into our State helicopter efforts, 
our maintenance efforts, etc. JTF is a separate line, as is JTF 
west.
    Mr. Souder. Do you have a rough idea out of that 850 how 
much are things, for lack of a better word, within our northern 
and southern hemisphere, out of that, and how much is 
Afghanistan or regions outside? In other words, if most of our 
narcotics problems are in north and south.
    Mr. O'Connell. Yes, I can give you a breakdown and I will 
submit that directly to you, my staff will, and there are some 
classified intelligence figures that we pay for out of that CTA 
as well. And I will give you, without going into specifics, we 
work very closely with the British as the lead as we testified 
2 weeks ago in Afghanistan. We go into various intelligence 
communities and provide capabilities within NEMO and national 
geo--or national geospatial agencies so that we can use those 
capabilities specifically for the commitments we have made with 
the U.K. in Afghanistan. We have those same types of accounts 
with NSA, with NGA, and others, and we work very closely with 
CIA's Counternarcotics Center to integrate our intelligence 
effort, and much of that is shared and fused directly with the 
Colombians.
    So I think that is a success story, and one of the reasons 
you are seeing more successful seizures of various labs and 
more successful interdiction.
    Mr. Souder. I want to ask you about the aerostats. That has 
declined in south Florida, and then there has been a cutting 
back from the Rio Grande over in the other part of the Gulf of 
Mexico.
    Mr. O'Connell. Yes, sir.
    Mr. Souder. Do you see this as something that is a less of 
a priority for the Department of Defense; it is clearly being 
reduced, and should there be another agency that takes that 
over? How should we do that? Because many of us feel that is a 
very critical part of providing the intelligence.
    Mr. O'Connell. Yes, sir. Let me be blunt. We are struggling 
with that issue right now and we are doing negotiations with 
General Everhart at Northcom, with Assistant Secretary McHale 
in terms of his homeland defense responsibilities. There was a 
congressional reduction of $6 million last year which has 
caused me again to come up against this ceiling and try to make 
decisions as to which aerostats are old, will DOD make a bold 
commitment for the future to recapitalize these things. Some 
are in need of repair. It does cost money to store, and so we 
have had to make some tough decisions, and we have also had to 
go to the Intelligence Community and say, what really is the 
threat? What are we looking for? Counternarcotics tracks, 
defense against rogue aircraft terrorism? How can we integrate 
with our other air assets?
    So I will admit that we are struggling and, hopefully, we 
will have a coherent answer back for the Congress and placed in 
the DOD budget.
    Mr. Souder. Are you saying that Congress cut the 
administration request $6 million, or are you saying it was----
    Mr. O'Connell. I believe it was a congressional--I will go 
back, but I think there was a congressional----
    Mr. Souder. Underneath the administration's budget request.
    Mr. O'Connell. Yes, sir. Specifically, $6 million, I think 
which caused us to take a decision on a specific aerostat that 
I would rather not discuss right now.
    Mr. Souder. Let me ask one last specific question on North 
Command.
    Mr. O'Connell. Yes, sir.
    Mr. Souder. Every time I go to the JTFs, it is very 
confusing to somebody who has lots of other things in their 
head as well and isn't full-time into this, which is to be 
expected.
    Mr. O'Connell. At JTF south?
    Mr. Souder. At JTF south. It is unclear to me what exactly 
is in North Command, but to me, North Command is in the 
southern sphere, it is relatively confusing. I am wondering--my 
understanding is you are looking at more along the north border 
and if so, will that have a counternarcotics mission, and will 
that change as far as the south?
    Mr. O'Connell. Yes, sir. It is my understanding that the 
current plans--that the location of JTF north would be in its 
current location in El Paso, that may be the central hub. It 
may not move to the center part of the country or collocated 
with Northern Command.
    With respect to the responsibility of JTF south, which 
basically went up to the southern boundaries of California and 
then were taken over by JTF west, that is being shifted by 
Admiral Fargo, and we are paying that bill or at least a good 
portion of that bill to Hawaii.
    It is interesting that in talking to the combatant 
commanders, particularly central command, the deputy command, 
the European command and the commander in the Pacific, they are 
looking to the JTFs as a model where they can not only looking 
at their counternarcotic mission, and they are taking that much 
more seriously. They see the nexus between counternarcotics and 
terrorism; they see the fact that they can consolidate 
surveillance capabilities that many of the authorities that our 
forces and Coast Guard have for interdiction are similar, 
whether it is counternarcotics, WMD, smuggling, personnel or 
whatever, and as these problems merge, our surveillance efforts 
are going to merge and our authorities will become a little bit 
tighter.
    And I think you will see a little more models in Central 
Command, and perhaps in the U.S.-European command, because JTF 
south has been very, very successful. It is a model for the 
future. And as we integrate new technologies such as over-the-
horizon radar, which will lessen the strain on our maritime 
hours and things like that, and our response capability becomes 
more robust with HITRON, etc., I think you will see a much more 
successful approach and a more integrated approach from DOD. 
That is just my expectation from looking at how the military 
leadership is responding to counternarcotics.
    Mr. Souder. We want to followup on this, and some of this 
obviously would be a classified brief, but we need to keep 
track of this, because without good intelligence, all system 
falls apart because you are just looking for needles in 
haystacks, and how these models can be further developed with 
the Department of Homeland Security as we look at similar 
things on north and south border, and as it hits the border, 
there will be more overlap. There is less overlap sometimes in 
the eradication efforts.
    Mr. O'Connell. If I could add one thing not quite related. 
State Department and Special Operations Low Intensity Conflict 
Assistant Secretary have cognizance over something called the 
Technical Support Working Group. While we have some technical 
R&D in counternarcotics activities, we have a very successful 
program that I am trying to merge to make sure those 
technologies that are counterterrorist in nature that have 
application in the counternarcotics field, in fact, get looked 
at. It is a success story. I would invite you or any of your 
members over to get a briefing on the technical support working 
group to see 82 government agencies actually working together.
    Mr. Ruppersberger. It is a miracle.
    Mr. O'Connell. It is. It absolutely is a miracle. But I 
think as Members of Congress, would you be shocked and 
astonished at how well State and Defense run this particular 
program today, and it has application for the counternarcotics 
field and we are moving in that direction.
    Mr. Charles. If I could just support this point a little 
more broadly, Mr. O'Connell's office and SOUTHCOM have been 
highly supportive, in my view, of what you want and what we 
would like to be doing down country. General Hill has been down 
there, I think, 18 or 20 times. I don't know of any head of 
SOUTHCOM that has ever been down there in this space of time 
that number of times. He is clearly committed, and in no way do 
any of the things that I was sort of alluding to suggest that 
those two offices in any way are not working in sync.
    I go back in time to that moment 10 years ago or so when we 
were working on these things, and what we were finding is, for 
example, that at that moment in time the deployment of AWACS 
was what was happening, and it was too expensive, so they were 
pulling them out, they had pulled them out in the first Gulf 
war, so there was no overhead. There was no eye in the sky. 
Customs and others worked these issues.
    I think the challenges now are more aggressively on the 
ground supporting the Colombian Government and doing some 
things that are really high intensity on the ground, and in 
those ways, I think, separate from our discussion on 
Afghanistan last week, in those ways, this is really happening. 
The training on the ground, which is so critical is happening, 
the Intel sharing, the interagency cooperation, that stuff is 
really happening. I do think we are going to have to see 
results out of it, but I think we are beginning to see results 
out of it.
    The other thing is you asked to break out----
    Mr. Souder. But we are still struggling.
    Mr. Charles. We are struggling.
    Mr. Souder. A statistic that we have been given is 396 
identified go-fast shipments and we have only gotten 59.
    Mr. Charles. Can I give you an answer to that? I was 
talking with a Coast Guard officer that you and I both know 
very well the other day, and I said, how is it that we can see 
a spike in interdiction, but we are not showing the kind of 
results that we did in the late 1980's when there was a surge 
that was constantly being used in a large square and the square 
shifted. He said, let me explain it to you. I drive a 378 
around called the Bear throughout the region. He said, I take 
out a map and I drop a dime on the map and I say, that's the 
total area that I can get to with my boat. I can't--that is 
what I--I mean I am one of a very few cutters that are down 
there. Then he dropped an index card on the map and he said, 
that's what I can do with a helicopter, and if that helicopter 
is a disabling helicopter, I can do other things. And with 
State Department and DOD and other support, again with Coast 
Guard, you can move to control that zone.
    Mr. Souder. So the bottom line is that you are only getting 
59 for 396 because they are not there. They are up in port.
    Mr. Charles. Well, I don't know about that, because I am 
not a Coast Guard person, and I don't want to get out of my 
lane, but I will say----
    Mr. Souder. But we are not in disagreement that the one 
boat that is out there can't find all this. This is not what 
our dispute is.
    Mr. Charles. Well, the point I would say is, if you 
remember back to the 20 percent figure, 15 to 20 percent, and 
in Afghanistan we are talking 10 to 20 percent, if you can hit 
hard interdiction at that level, with 10 to 15, maybe 20 
percent, what you find is you have created enough disruption in 
the market that they do something--they go a different 
direction or they make mistakes that allow you to catch them.
    I think that our mission is to get back to that point in 
time when the interagencies are cooperating really effectively. 
Because I push hard on the source countries. I push hard on the 
judicial capacity. I push hard on the eradication, and I push 
hard on getting the extraditions and things like that. DOD 
pushes hard to try to get all of the end game that they are 
accountable for. But in fact, interdiction, this interdiction 
in the transit zone is also critical and is doable at a very 
high level of force multiplication. Because that is the point 
at which in a go-fast, both they are least well protected, they 
are most vulnerable, they are in the highest density, they are 
not in retail on the street in the United States, and they are 
not out in the field in one plant at a time.
    So if you are high intensity in that area, you can also--
and this is one of the reasons we are at a tipping point. At 
the USIC conference recently, the point came around that not 
only are we winning on source country stuff and beginning to 
just hit the balance, and we are doing that strongly in the 
interagency, but we are also beginning to win in interdiction. 
So if we can also do the parts that you were talking about, 
Congressman, and work aggressively on the prevention piece, the 
drug testing piece, I think you are going to see something in 5 
years, 3 years, 2 years that looks very different from what you 
are looking at right now.
    Mr. Souder. We have to be careful that we are not paying 
millions of dollars to get good intelligence and paying all of 
these people to be on the ground and identify it, and then when 
they leave the country, we don't get them. That is why we have 
to have all of the pieces there and that was part of the round 
of my questions, because it is good to know that if we have the 
intelligence, that is good because we have been concerned about 
that. If we get enough agents on the ground to identify, work 
at the eradication, but when they are coming out, it is a 
little disturbing right now that we are not getting enough and 
whether we have, in effect, boosted that zone, which is an 
argument for the Coast Guard.
    Mr. Charles. I think it would be a very interesting thing 
some day, not to suggest a hearing context, but to have all of 
us lined up at once, DEA and Coast Guard and all of us able to 
tell you our pieces, because in fact----
    Mr. Souder. OMB can do your testimony.
    Mr. Charles. Yes, it will all be the same. Anyway----
    Mr. Souder. Mr. Ruppersberger.
    Mr. Ruppersberger. The chairman alluded to it: it is the 
same issue; it is a matter of prioritizing the resources. And 
when it is still coming out, because your boats or whatever are 
not there and they are in port or whatever, that is a matter of 
resources, and the lives and the money, you talked about how 
many people have been killed as a result of this, we still 
haven't gotten to where we need to be.
    I alluded to it and it was kind of in a joking way that you 
always look after your district, but the unmanned air vehicles 
have been extremely successful in Iraq and it allowed our 
military to see 8 miles ahead and they couldn't shoot it down. 
What about that issue? I mean, have you made any requests or 
have the requests been made? Where are we going with respect to 
that? Or is it we can't get them built fast enough to use them 
over in Iraq?
    Mr. O'Connell. There are--well, I won't speak for the Coast 
Guard, but we do have a very robust, integrated UAV program. 
The research and development is in both the counternarcotics 
side and the U.S. Special Operations Command side. It is a 
question of the resources and the applicability and does the 
combatant commander want that particular asset for that 
particular area. And some of the sensors that we might use in 
the Middle East are not necessarily particularly effective 
against what we are looking for in Latin America capability. We 
also have a very different type of terrain, as I am sure you 
are well aware. So there are some particular problems.
    But we are looking at that. And to answer your question 
about coordination and synergy, to answer both of your 
questions and your concern, I would be happy to discuss with 
your staffers a recent initiative that was taken, interagency 
that we can't discuss here that I think would answer some of 
your questions and shock you at the level of cooperation that 
we are having as an interagency. Mr. Walters couldn't allude to 
it, but I would be happy to speak to your staff director and 
give you a quick briefing on what actually took place.
    Mr. Charles. I would just augment this on UAVs by saying 
that again, mission--it is not a matter of resources so much 
for us. It is really mission. You have an environment where 
UAVs have to work, and the environment is tough on some of 
these UAVs from our perspective. The other perspective is we 
have 152 operational aircraft right now. Their mission is to 
spray and to protect. We send T 65 spray planes, 802 spray 
planes, and the OV 10's into this environment, and they hold 
large quantities of glyphosate, they spray on a computerized 
grid.
    At the same time, our protective assets are two helicopter 
gun ships and two Huey 2s with 10 to 15-man fast reaction teams 
and one SAR with every mission so that they are protected. UAVs 
just don't match yet. I mean I will go back and look at it, but 
I don't think----
    Mr. Ruppersberger. Let me suggest this to you. You can 
build things to specifications. I don't want to get into a lot 
of this, but it is a matter of prioritizing where you are going 
to put your money. You can do this, and I have heard testimony 
in other committees about that. So look into it. That's all.
    Mr. O'Connell. I would be happy to talk UAV applications 
and special operations forces, sir, at any time.
    Mr. Ruppersberger. I just got briefed on it a week ago, but 
we do still have the three Americans who work for a company 
that is in my district, and they are always asking me for an 
update. I assume there is nothing new; the same situation. 
Other than I know, based on what you said about the Government 
in Colombia is becoming a lot more aggressive and making a lot 
more inroads dealing with the terrorists, especially the parks.
    Mr. Charles. I can't speak to it on the ground, and I will 
leave that to others, but I will tell you that I have spoken 
with all three families, and in an odd twist, one of the 
sisters of one of the hostages is a close friend of my sister. 
So I am deeply concerned about what is happening and would have 
been regardless and was regardless. But we monitor it closely, 
the State Department does. I can't tell you--it is over 100, I 
think it is over 160 contacts that have been made with the 
families to try to be sure that they understand everything we 
know.
    Mr. O'Connell. And to the extent that the Department has 
collection assets and is working with the Colombian Government, 
obviously they have the lead as does State in terms of how they 
are going to approach this. And all I can say is that there is 
a delicate, very delicate balance of what do you do any time 
there is an increased likelihood that the location could be 
known, how far are we away from a negotiated release, and all 
of the difficult issues that come. Yes, there may have been 
times when you might have been able to do something----
    Mr. Ruppersberger. Just too risky.
    Mr. O'Connell. I wouldn't say that, because----
    Mr. Ruppersberger. I mean for the hostages.
    Mr. O'Connell. And General Hill, the combatant commander, 
it is a subject that takes an enormous amount of his time and 
capability, and I will tell you that even if location is known, 
that doesn't always equate to an ability to immediately react 
and become successful, and leave it at that. But we do pay a 
heck of a lot of attention to that, as does State, and as does 
CIA.
    Mr. Charles. And I would suggest maybe calling for at the 
Intel Committee or in some other forum, an updated brief on 
that, because it changes regularly and it is something that you 
probably would learn a lot more in that environment.
    Mr. Souder. I thank you both. I want to thank again Mr. 
O'Connell who, at a time when you are getting all kinds of 
pressure all over the country for military assets, and I have 
supported those efforts around the world, we just need to make 
sure that there is a dedicated, aggressive defense of the 
narcotics effort and battling over those resources at the 
department level, because there has never been a questioning of 
General Hill who is enthusiastic and supportive, or any of the 
people we have met over the years in SOUTHCOM, understand the 
risks there, understand the importance there. The people on the 
ground understand it, but there is such a competition at 
headquarters, we really need your office to be a strong 
advocate and we need the drug czar, Director Walters, to also 
be backing up inside the cabinet meetings that this is a 
critical issue, which is why I was asking him his questions, 
and the coordination with the State Department which has 
similar pressures all over the world.
    I thank both of you for your leadership. If you have 
additional things you want to insert for the record or followup 
on some of those questions, and we may have a few specific 
questions as well.
    With that, I thank you both, I thank Congressman 
Ruppersberger and, with that, the hearing stands adjourned.
    [Whereupon, at 6:25 p.m., the subcommittee was adjourned.]
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T5530.031
    
                                 <all>

</pre></body></html>
